<html>
<title> - WHAT IS YOUR CHILD READING IN SCHOOL? HOW STANDARDS AND TEXTBOOKS INFLUENCE EDUCATION</title>
<body><pre>[Senate Hearing 108-272]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-272

   WHAT IS YOUR CHILD READING IN SCHOOL? HOW STANDARDS AND TEXTBOOKS 
                          INFLUENCE EDUCATION

=======================================================================

                                HEARING


                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON



   EXAMINING CONFLICTS TAKING PLACE OVER STATE HISTORY STANDARDS AND 
 HISTORY TEXTBOOKS, FOCUSING ON HOW STANDARDS AND TEXTBOOKS INFLUENCE 
                               EDUCATION

                               __________

                           SEPTEMBER 24, 2003

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



89-644              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                     WEDNESDAY, SEPTEMBER 24, 2003

                                                                   Page
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     1
Gregg, Hon. Judd, a U.S. Senator from the State of New Hampshire, 
  prepared statement.............................................     1
Ravitch, Diane, Research Professor, New York University, New 
  York, NY; Gilbert Sewall, Director, American Textbook Council, 
  New York, NYU; Sandra Stotsky, Former Senior Associate 
  Commissioner, Massachusetts Department of Education, Malden, 
  MA; and Robert Hagopian, Teacher, Scotts Valley Middle School, 
  Scotts Valley, CA..............................................     9
    Prepared statements of:
        Diane Ravitch............................................    13
        Gilbert Sewall...........................................    18
        Sandra Stotsky...........................................    22
        Robert Hagopian..........................................    43

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Resolution, Boston City Council..............................    25
    How Study of the Holocaust is Turning America Into Amerika, 
      Sandra Stotsky.............................................    25
    Stephen Driesler, Executive Director, Association of American 
      Publishers, School Division, prepared statement............    56
    Standards for Evaluating Instructional Materials for Social 
      Content (2000 Edition), California Department of Education.    58

                                 (iii)

  

 
   WHAT IS YOUR CHILD READING IN SCHOOL? HOW STANDARDS AND TEXTBOOKS 
                          INFLUENCE EDUCATION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 2003

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Lamar 
Alexander, presiding.
    Present: Senators Alexander and Ensign.

                 Opening Statement of Senator Alexander

    Senator Alexander. [presiding]. The committee will please 
come to order.
    I want to welcome the witnesses and the audience. This is 
the first of a series of hearings planned by Chairman Judd 
Gregg on intellectual diversity in American education, and the 
first topic focuses on textbooks as well as standards.
    Senator Gregg looks forward to all these hearings. He is 
not able to join the hearing today because of other 
commitments, but he has prepared a very good opening statement, 
and we will include that opening statement in the record.
    [The prepared statement of Senator Gregg follows:]

                  Prepared Statement of Senator Gregg

    Today's hearing is the first in a series of hearings I 
intend to hold on intellectual diversity--or rather the lack 
thereof--in our nation's primary, secondary and postsecondary 
classrooms.
    On the primary and secondary level, there appears to be an 
ever-increasing tendency to scrub textbooks, State assessments 
and even State standards of anything that may have the remotest 
chance of offense. The result is a homogenized curriculum that 
robs children of a balanced and accurate depiction of both 
history and the world around them.
    We are judging the past through the lens of today's values, 
standards and norms, and taking historical figures and 
decisions out of context. This is historically dishonest and 
distorts students' understanding of time and place.
    For example, discussing the inspiring true story of Mary 
McLeod Bethune--an African American woman who defied the odds 
to found a school for African American girls in Florida in the 
early twentieth century--is not allowed. Why? Because she named 
her school the ``Daytona Educational and Industrial Training 
School for Negro Girls''--and you can't say ``negro'' even 
though it is historically accurate and integral to the story.
    We also hear reports of stories about owls being deleted 
from reading passages because in some cultures the owl is 
associated with death, and death is scary to children.
    The inanity of these examples is just the tip of the 
iceberg. We learn that many publishers of textbooks and 
assessments avoid terms such as: ``American'', ``backward'', 
``dogma'', ``Founding Fathers'', ``heroine'', ``early man'', 
and ``substandard English.''
    We learn that classic tales like Aesop's Fables are found 
to be too controversial because of gender stereotypes embedded 
in such tales as the ``Fox and the Crow.''
    However, nowhere is this unbalanced perspective 
demonstrated better or more routinely than in the subject of 
history--which brings us to the purpose of today's hearing: an 
examination of the quality of our nation's history textbooks, 
assessments and standards.
    We are here today to shed light on the fact that textbooks, 
assessments and even some State standards have succumbed to the 
pressures of the political correctness movement.
    Various studies show that our students lack not only raw 
knowledge of key historical facts and concepts, but also a 
balanced view of the world, and for that matter, an 
appreciation for American and Western contributions to society.
    There is empirical evidence that we are shortchanging 
children of a basic knowledge of our nation's past.
    The National Assessment of Educational Progress's U.S. 
History exam (a voluntary national test) confirms the woeful 
decline in students' knowledge of American history:
    <bullet> Well over half of twelfth graders scored below the 
basic level on the most recent exam, indicating little to no 
comprehension of U.S. History.
    <bullet> Less than one out of five students scored at or 
above the proficient level in U.S. History. This tiny fraction 
of students scoring at the proficient level is smaller in 
history than any other subject tested by NAEP.
    <bullet> According to the NAEP Civics exam, nearly \1/3\ of 
students scored below the basic level, indicating no mastery or 
comprehension of the structures, functions, values and process 
of our government.
    Sadly, the poor performance trend in history and civics 
extends into college. A recent poll of seniors at the nation's 
top 55 liberal arts colleges found that less than \1/4\ could 
identify James Madison as the ``father of the Constitution,'' 
and over \1/3\ were unable to identify the U.S. Constitution as 
establishing our government's division of power.
    Extensive research documents that textbooks--which often 
contain bias and inaccuracies--are presenting a distorted 
picture of America, weakening students' civic engagement, and 
depressing student achievement by diminishing interest in U.S. 
and World History.
    In Texas alone, over 500 factual errors were found in a 
study of more than two dozen social studies textbooks used in 
the State. Content reviewers discovered hundreds more problems 
concerning insufficient or distorted discussion of key people, 
places and events. For example, one textbook devoted four pages 
to capitalism, while socialism merited 18 pages and communism 
45 pages. Another textbook mistook John Marshall for John Jay 
as the first Supreme Court justice. The list of bias and errors 
goes on and on.
    Historian Diane Ravitch, one of our witnesses, found that 
textbook publishers and assessment companies ``sugarcoat 
practices in non-western cultures that they would condemn if 
done by Europeans or Americans.''
    Our children read textbooks that sanitize the treatment of 
women in Arab countries today and yet are critical of women 
being denied admission to a school in New Spain in the 17th 
century--failing to note that the school was founded to educate 
priests and clerics.
    They learn that slavery was exclusively a practice of 
Western Europeans, when in reality slavery has been practiced 
in almost all societies throughout the world.
    They read such misleading and denigrating text as ``Do you 
notice that the Chinese seem to have thought of a lot of things 
before Europeans did? The Chinese were weaving silk and making 
beautiful artifacts when most Europeans were living in caves 
and wearing animal skins''--despite historical evidence showing 
that Europeans wove linen and patterned fabrics as early as the 
4th millennium BC, whereas the Chinese weren't weaving silk 
until the late 3rd millennium BC.
    A recent report by one of our witnesses, Gilbert Sewall of 
the American Textbook Council, examined about 20 commonly used 
social studies textbooks and found that their content is 
growing thinner, yet increasingly critical of the U.S. and 
Western civilization.
    In many of these textbooks, other civilizations are 
glorified, their problems and abuses glossed over, while 
American struggles and mistakes are highlighted at the expense 
of our greatest achievements to the degree that many students 
conclude America is a hopelessly flawed and deeply troubled 
country.
    Examples of the anti-American slant in textbooks are not 
rare. Veteran history teacher and author Peter Gibbon, who 
taught American History for many years using a variety of 
textbooks, writes: ``There is much in these texts now about 
income inequality, environmental degradation, the horrors of 
immigration, and the hardships of the western frontier. . . . 
Contemporary history books cover in detail the Vietnam War and 
our shameful treatment of Native Americans. Little mention is 
made in them, however, of genius or heroism. . . . From many of 
our textbooks, one would not know that in the span of human 
history, the United States has stood for peace, wealth and 
accomplishment and has made possible millions of quiet and 
contented lives.''
    This concern regarding the overemphasis of America's 
shortcomings is not limited to conservatives.
    The American Federation of Teachers' Albert Shanker 
Institute (hardly known as a bastion of conservative thought) 
similarly decries the dearth of civic knowledge and pride in 
our youngsters.
    The Shanker report represents a consensus of concern among 
political right and left, and is notable for the wide range of 
signatories it attracted, including former President Bill 
Clinton, and esteemed historian David McCullough.
    The Shanker treatise cites a growing body of research 
confirming a strong bias against America in the U.S. and World 
History textbooks most widely used in our schools.
    According to the report, today's students show little sign 
of having cultivated the necessary understanding and 
appreciation for America and its values to enable them to 
preserve our democracy. ``In too many instances,'' the report 
notes, ``America's sins, slights and shortcomings have become 
not just a piece of the story but its essence.''
    If our children are being told such a negative story, it is 
no wonder that they show such little interest and pride in our 
national history. And so we must ask ourselves: how did we let 
this happen?
    Compounding this anti-American bias, publishers routinely 
ban certain words, phrases, topics and images, some of which 
are offensive but historically accurate, and some of which defy 
common sense.
    Why? Because the content of textbooks has been hijacked by 
bias committees that review all such materials. These bias 
committees serve as academic thought police by severely 
limiting what children encounter in instructional materials.
    Dr. Ravitch, in her book, has documented the existence of a 
voluntary form of censorship in our textbooks, in which the 
publishers adhere to strict ``bias and sensitivity 
guidelines,'' taking pains not to offend anyone on the 
political right or left.
    This is a classic case of good intentions gone awry. What 
began as a worthwhile effort decades ago to ensure that 
different gender and ethnic groups were portrayed in a balanced 
way has been taken to extremes, with absolute numerical parity 
demanded and a litany of words and phrases that are banned.
    Publishers and their writers bend to the will of interest 
groups who demand that no one ever be represented in anything 
less than an ideal light--regardless of the facts.
    This censorship has led to the creation of senseless 
instructional materials that bear more resemblance to utopia 
than the world we live in.
    The influence of bias committees does not extend just to 
publishers--it also extends to assessments and even State 
standards. We asked a handful of States, publishers and 
assessment companies to provide us with their bias guidelines. 
Although we have heard from several of the education firms, we 
have only heard from one of the States we contacted.
    We intend to continue to cull through the materials sent to 
us, as I remain concerned that it is bias committees and 
sensitivity guidelines in conjunction with the influence of 
special interests groups that have contributed to the anemic, 
homogenized and even hostile curriculums to which many of our 
children are exposed. It is my hope to bring further attention 
to the problems posed by many of these guidelines and special 
interests.
    Although textbooks and assessments are part of the problem, 
no discussion of history or civics education can be complete 
without consideration of State standards. Unfortunately, the 
influence of the censorship and political correctness movements 
extends to this arena, too.
    Since the publishers and assessment companies must to some 
degree mold their products to State standards, those standards 
impact how history is presented to our students.
    Although today 48 States and the District of Columbia have 
spelled out in some form what children ought to learn in 
history and civics, many States do not have clear and 
thoughtful standards in these areas.
    A new report from the Thomas B. Fordham Institute, released 
today, shows we still have a long way to go before all States 
have established clear and logical curricular frameworks. The 
report analyzed 48 States' and the District of Columbia's 
social studies and U.S. History standards for comprehensive 
historical content, sequential development and balance. Fordham 
awarded 11 States As and Bs, 7 States Cs, and 31 States Ds or 
Fs.
    The report found that the majority of State standards 
neglect some of the most important historical figures, and 
political, social, cultural and economic events, and fall prey 
either to right-wing glossing over past injustices or left-wing 
politically correct posturing. Eleventh graders in one State, 
for example, are instructed to ``analyze the reasons the United 
States is an imperialist nation,'' while high school standards 
in another State neglect to cover the rise of the KKK, the 
disenfranchisement of black voters and the spread of Jim Crow 
laws following the Reconstruction. Both types of 
misrepresentation are equally reprehensible and irresponsible.
    The report also noted that: ``Instead of correcting 
yesterday's distortions by presenting a balanced and complete 
national history for American students, State standards and 
curricula often replace old distortions with new ones . . . 
today's students can readily identify Sacajawea and Harriet 
Tubman but often can barely discuss Washington or Jefferson--
except as slave owners.''
    The Fordham study follows on the heels of a report by the 
Albert Shanker Institute released earlier this year. The 
Shanker study found most of the States' standards to be 
inadequate, either stuffed with too many specifics and no clear 
priorities, or too vague and general to be useful to teachers.
    The problem with history and civics education, like so many 
education issues, is not rooted in lack of money. Rather, the 
problem is rooted in biased and skewed perspectives promulgated 
by weak textbooks and standards.
    Sadly, we will be unable to improve student knowledge and 
appreciation of the contributions of the U.S. and Western 
society if we continue to provide children with textbooks and 
assessments that lack an accurate, balanced, thought-provoking 
depiction of both U.S. and World History.
    As we know, much of the world is hostile to Western values, 
and particularly American ideals and institutions. If we fail 
to demonstrate to our children why those ideals are worth 
fighting for, and if we fail to offer our children a balanced 
view of U.S. History and Western civilization, we risk letting 
those who oppose our ideals define us.
    Senator Alexander. We have distinguished witnesses today. 
Also following the way that Judd Gregg likes to do these so-
called hearings is to make them more of a discussion, because 
we want to take advantage of the witnesses' scholarship and 
experience. We want to make that a part of the record. We want 
people to know about it.
    So the way that we will proceed is that I will make an 
opening statement and then, starting with Dr. Ravitch and 
moving across the line if that is all right, I will ask each of 
you to summarize your statements in 5 to 7 minutes and give us 
a good sense of what is there, make your major points, and then 
I will begin to ask questions, and as other Senators come, they 
will have a chance to do that, but I would encourage you to 
comment on your fellow panel members' comments as we go along.
    I want to commend Chairman Gregg for convening what I 
consider to be a critical hearing on the State of textbooks 
that are used to teach our children. School textbooks today are 
in disarray. They have become overly boring, overly sanitized, 
and at times blatantly inaccurate. Censorship based on 
political sensitivity is now rampant in the textbook industry, 
and our children are suffering for it.
    Textbooks today are subjected to bias and sensitivity 
reviews that are so stringent, much of our history and 
literature is censored. I know that that has been mentioned in 
your testimony, and I hope we get into a good discussion of 
these bias and sensitivity committees that Dr. Ravitch has 
written about especially.
    Interestingly, this is not an ideological battle where 
forces of the left are beating up the right or vice versa. In 
reality, reviewers have bowed to the extremes of both sides, 
resulting in unintended conspiracy to deny reality.
    In practice, as Dr. Ravitch explains in her new book, ``The 
Language Police''--not too new; it has made a lot of bestseller 
lists--both the right and the left work to exclude certain 
topics or phrases that they find objectionable.
    This morning, as an example, I visited a project of 
National History Day and U.S. News and World Report at the 
National Archives where they were announcing an effort which 
sounds to me like a lot of fun and a good way to encourage the 
teaching of American history and civics. They are going to ask 
school kids to vote on the 10 most important of 100 documents 
that are important in American history. Then they will report 
all of that. Well, it will be interesting to see what our 
students know about those documents and what opinions they have 
about the documents.
    But what is even more interesting is that if you go to the 
back of Dr. Ravitch's book where she records what the bias and 
sensitivity committees suggest teachers not say or textbooks 
not print, most of the documents could not be studied in our 
schools in America.
    I asked the interns in the office this morning just to run 
through those 100 documents, and they disqualified at least 70 
of the 100 from any American history or social studies 
classroom based upon the advice of the bias and sensitivity 
committees which govern the textbooks that most classrooms 
have. Words like ``Founding Fathers'' out-go about 10 
documents. Words like ``race'' or subjects like race--out goes 
Plessy v. Ferguson, a couple of Amendments to the Constitution, 
the Civil Rights Act of 1964. Religion--we would not want to 
discuss religion in classrooms in America, and of course, the 
Civil Rights Act of 1964 could therefore not be taught in a 
classroom because it expressly mentions religion. ``In God we 
Trust,'' even though it is the national motto approved by 
Congress, could not be taught in the American classroom if you 
follow the advice of the bias and sensitivity committees.
    So race, religion, and even three of the four major 
textbook bias and sensitivity committees suggest that using the 
words ``America'' or ``American'' would not be appropriate, 
which wipes out maybe \1/3\ of the important key documents in 
the United States.
    I hope we can talk more about this. I know that your 
testimony talks about it--but how did these bias and 
sensitivity committees ever get so much control over what is 
taught or not taught in our classrooms, leading to ridiculous 
outcomes?
    Textbook publishers, who have a virtual monopoly on the 
market, are subject to immense pressures to portray life as 
interest groups wish it were, and they are bowing to these 
special interests. Not only do textbook companies routinely 
employ the bias and sensitivity reviews, like acknowledgment of 
the existence of Mount Rushmore, which might offend certain 
Lakota Indians, but they also attempt to preempt such reviews 
by providing guidelines to authors prior to writing textbooks.
    The impact of the pressure exerted on publishers reaches 
further than just banning certain words and phrases. 
Information can be wildly skewed. For example, in history 
books, it is now common to read about pre-Columbian 
civilization in the Americas and their contribution to culture, 
while ignoring or dismissing some of their backward practices, 
such as the Aztec practice of human sacrifice. At the same 
time, the accomplishments of European civilizations are 
downplayed to the extent that some textbooks are more likely to 
tell about a university in Timbuktu than one in Oxford or 
Cambridge.
    Sometimes these practices lead to blatant falsehoods which 
the writings of some of you have detailed. For example, it is 
not uncommon for American history textbooks to assert that the 
ideal of American democracy is descended from the practices of 
Iroquois Indians, yet they produce no evidence that any of the 
Founding Fathers--a word we could not mention in the 
classroom--cited the Iroquois as the inspiration for the ideas 
in the Declaration of Independence or the Constitution. Is it 
possible that some of the members of the Continental Congress 
knew of Iroquois practices? Yes. Is it clear that it 
significantly influenced their views? No, so we ought not to 
present it as a fact.
    The last set of examples particularly concerns me. Since 
September 11, more than at any time in our generation, our 
country has gone back to school on what it means to be an 
American, to know our history and the values upon which our 
Nation was founded. In many American history classrooms, our 
textbook is the curriculum. Many teachers of American history 
were not students of history in college and are dependent upon 
the textbook for material. So if the textbooks are incomplete, 
misleading, or blatantly wrong, our children are growing up 
with a skewed view of our national identity or no idea of our 
national identity. We have to put a stop to this.
    Former American Federation of Teachers President Albert 
Shanker once said at a meeting that I attended in Rochester, NY 
that ``The common school was invented to teach immigrant 
children the three R's and what it means to be an American, 
with the hope they would go home and teach their parents.'' The 
common school therefore was founded to be one of the principal 
Americanizing institutions. How can we teach our children the 
values we share as Americans if words describing them are 
banned by language police at textbook companies?
    For example, Congress made the national motto of our 
country ``In God we Trust'' in the 1950's. Yet today, to 
mention ``God'' in a textbook would cause a political 
earthquake.
    Teachers must be free to discuss the fundamentally 
religious nature of our heritage and at the same time 
acknowledge the separation of Church and State, or at least the 
fact that we do not want an establishment Church as provided 
for in the First Amendment.
    On the Seal of the United States, a Latin phrase appears: 
``E pluribus unum''--``Out of many, one.'' How can we become 
one people, one America, if we cannot acknowledge our common 
culture? How can our children understand our country if they do 
not know the great struggles we face? Most of our political 
history has been about two things--struggling to achieve the 
idealistic values we ascribe to and dealing with 
disappointments when we do not reach them, and then balancing 
those competing values when they conflict with each other in 
the discussion of specific issues.
    If our history books ignore these conflicts and deny those 
common values, our children will never know what it means to be 
an America.
    Our witnesses today are four, and I will introduce all four 
of them and then ask them to proceed. And I will not give them 
the full introduction that all four deserve; I will do it 
briefly.
    First, Dr. Diane Ravitch is a research professor at New 
York University School of Education and a nonresident Senior 
Fellow at The Brookings Institution and one of the most 
eminent, if not the most eminent, historian of American 
education. She is the former Assistant Secretary of Education 
for the United States. She was in charge of educational 
research and improvement from 1991 to 1993. She has won 
plaudits from both political parties and from many people in 
this country. She was appointed, for example, to the National 
Assessment Governing Board by Secretary Richard Riley in 1997 
during the Clinton Administration and was appointed by 
President Bush as Assistant Secretary of Education.
    Her new book, ``The Language Police,'' is almost a 
sourcebook for this hearing or a discussion like this, in any 
event.
    Gilbert Sewall is the distinguished president of the Center 
for Education Studies, where he directs the American Textbook 
Council. He has reviewed a lot of history and social studies 
textbooks in his time. He has authored many textbook reports. 
He is a former instructor of history at Phillips Academy and 
professor at New York University and Boston University. Like 
Dr. Ravitch, he has written many books. He was education editor 
of Newsweek.
    Dr. Sandra Stotsky was senior associate commissioner in the 
Massachusetts Department of Education. She has directed 
complete revisions of the State's standards in English, math, 
science, history, geography, civics, and economics. Those 
standards are recognized by those who work as among the best in 
America and ones which other States might well emulate.
    Finally, Robert Hagopian, a teacher. He has taught eighth 
grade United States history for more than 32 years, the last 30 
of which have been at Scotts Valley Middle School in Santa Cruz 
County, CA. He is a member of the National Council for History 
Education. He has a wide variety of academic plaudits, but for 
our purposes today, his most important credential is that he is 
an eighth grade teacher of United States history. We especially 
look forward to his comments about what is happening in the 
classroom about textbooks and standards.
    Dr. Ravitch, why don't we begin with you?

   STATEMENTS OF DIANE RAVITCH, RESEARCH PROFESSOR, NEW YORK 
 UNIVERSITY, NEW YORK, NY; GILBERT SEWALL, DIRECTOR, AMERICAN 
 TEXTBOOK COUNCIL, NEW YORK, NY; SANDRA STOTSKY, FORMER SENIOR 
ASSOCIATE COMMISSIONER, MASSACHUSETTS DEPARTMENT OF EDUCATION, 
MALDEN, MA; AND ROBERT HAGOPIAN, TEACHER, SCOTTS VALLEY MIDDLE 
                   SCHOOL, SCOTTS VALLEY, CA

    Ms. Ravitch. Good morning, Senator Alexander.
    I must say that I was fortunate to serve under one of the 
great Secretaries of Education in the United States, so it is a 
pleasure to be here this morning.
    What was particularly appropriate to me was that as I was 
on the shuttle this morning, I read a front page story in The 
New York Times that Senator Hillary Rodham Clinton's 
autobiography has been edited, words have been deleted, in 
China to remove all references to her comments about her 
experiences in China. I was fascinated by this because, of 
course, it echoes so much of what I saw as I was preparing the 
study that was published as ``The Language Police.''
    I want to make a distinction, which is that many of the 
restrictions that were described in your opening statement 
apply more to testing than to textbooks. The testing publishers 
are very rigorous in that if any complaint comes in from any 
direction, they are very fast to drop a word or a phrase and 
take it out. So you will sometimes see those phrases in 
textbooks. You will see some discussion of religion; if 
anything, it tends to be almost reverential. One of the 
problems in the world history textbooks is that they tend to 
tell the story of each religion as that religion would want it 
to be told, because the material is not being presented 
historically; it is being present as its adherents would like 
to see it presented, which is also misleading, to teach, let us 
say, creation myths as if they were historically documented.
    I have had in my life in education two experiences that 
have kind of broken me beyond the bounds of academia. One was 
working in the Department of Education and the other was 
working over these past several years a member of the National 
Assessment Governing Board. It was as a member of the NAGB 
board, or NAGB, that I encountered this process called ``bias 
and sensitivity review.'' I was astonished when the publisher, 
who had been selected by a consortium of test publishers, gave 
us guidelines and told us, ``These are the words, these are the 
topics, these are the images that cannot be portrayed in any 
passage on a test.''
    These were not ethnic slurs or terms that really expressed 
bias as anyone who would recognize it. These were ordinary 
words. For example, a child cannot encounter the word 
``pumpkin.'' Why can't a child encounter the word ``pumpkin''? 
Well, because that would suggest Halloween, and Halloween would 
suggest witches, and witches are frightening. Some of these 
things are just off-the-wall.
    One of the stories that was deleted as a test topic was a 
story about Mount Rushmore because, as you pointed out in the 
opening statement, Mount Rushmore is offensive to the Lakota 
Tribe that lives near it, apparently--at least the test 
publisher thinks so--so Mount Rushmore cannot be portrayed in a 
standardized test.
    The same thing for owls--owls are tabu. They frighten 
certain children.
    It just goes on and on--you cannot have a story about 
peanuts, because some children are allergic to peanuts. I guess 
that would carry over to tomatoes and to shrimp and to 
everything that anyone anywhere is allergic to.
    What I did in ``The Language Police'' was a very carefully-
documented study of the way that censorship has changed the 
content in textbooks and in tests and the impact that it has 
had particularly in the fields of history and literature. This 
has happened first of all because States have allowed these 
pressure groups to make tremendous demands on the publishers, 
so the publishers now self-censor in order to bring their 
materials to the marketplace. And as a result of this self-
censorship that goes on, I found close to 1,000 common words 
and phrases and topics and images that are routinely deleted 
from stories by the educational publishing industry.
    Stories by well-known authors have been rewritten or 
deleted from textbooks and from standardized tests because a 
bias and sensitivity review committee objects to certain topics 
or language.
    Now, no one can possibly object to the removal of material 
that expresses bias against a racial group or gender or any 
specific group, but what few people realize today is that the 
educational publishing industry is using a new definition of 
``bias'' and ``insensitivity'' that defies common usage. In 
most instances that I have found, words and topics that you 
will find in your daily newspaper are routinely removed from 
textbooks stories and from tests.
    Many of the classic American novels and stories like Mark 
Twain's ``The Adventures of Huckleberry Finn'' or John 
Steinbeck's ``Grapes of Wrath''--and you could extend this list 
on and on--would have difficulty and in fact would not get 
passed a bias and sensitivity review board today.
    The result of this process called ``bias and sensitivity 
review,'' which is now the industry standard--it is done by 
every State, it is done by every publisher of textbooks and 
tests--is that it dumbs down educational materials, it reduces 
the vocabulary that children encounter, and it withholds from 
students a realistic portrayal of the world today.
    Now, in my book, I give lots of examples from tests and 
also from textbooks of material that has been dropped. I 
continue to get emails from people in the publishing industry 
giving me additional examples.
    One that came to me just recently was that over this past 
summer, a bias review committee in New Jersey preparing a test 
for 11th grade high school students rejected a short story by 
the famous African American writer Langston Hughes because he 
used the words ``negro'' and ``colored person.'' Those were the 
words that were appropriate when he was writing, and we cannot 
Langston Hughes' prose or delete the words, so the story was 
out.
    Every mass market publishers of textbooks and tests has 
what they call ``bias and sensitivity guidelines,'' and these 
guidelines list the words, topics and images that they will not 
permit writers or illustrators to use. There is an 
extraordinary sensitivity to everyone's self-esteem, including 
the self-esteem, apparently, of many tyrannies. Just today, in 
fact this morning, I got a delivery by courier from the 
American Federation of Teachers of the newest issue of The 
American Educator, in which I have an article called ``Leaving 
Reality Out: How Textbooks Don't Teach about Tyranny.'' And I 
reviewed six of the most widely-used world history textbooks 
and examined how they deal with Cuba, China, fundamentalist 
Islam, and Africa, and looking at how they deal in particular 
with tyrants. How they deal with it is to be so even-handed 
that children are denied knowledge of what tyranny is. Children 
are supposed to learn all the good things that Castro did in 
addition to repressing the Cuban people. They are supposed to 
learn about all the wonderful accomplishments of Mao and of his 
courage and his daring and how he controlled inflation and 
reduced taxes--he just sounds like a politician similar to 
those in our own society, except that he happens to be 
responsible for the deaths of 30 or 40 million people.
    It is this kind of exquisite concern about not offending 
anybody that reduces the interest level as well as the reality 
level of what is in the textbooks.
    Major publishers today tell their writers that they must be 
careful about using words like ``American,'' because if you say 
``American foreign policy,'' you are referring to the foreign 
policy of all of Latin America, South America, and North 
America, and no such policy exists. So you must be careful of 
this word, because it suggests, quote, ``geographical 
chauvinism.''
    They advise writers not to use the word ``brotherhood.'' 
The word ``brotherhood'' is almost universally banned because 
it is sexist. Several publishers have banned the term ``Middle 
East.'' They suggest that it be replaced by ``Southwest Asia.'' 
How are students to make sense of headlines that refer to the 
crisis in the Middle East when all they know is about 
``Southwest Asia''? Of course, what is Southwest Asia south and 
west of--but that is another question.
    Another term that is banned is ``Orient.'' Other terms that 
are banned are ``manpower'' and ``primitive'' and 
``congressman,'' heaven forbid.
    The pressure groups that demand censorship of textbooks and 
test passages do not come from one end of the political 
spectrum. They are right wing, left wing, and every other kind 
of wing. Anyone with a strong objection is likely to get a 
passage deleted or a story dropped if they object loudly enough 
and long enough.
    It is not my intention today to blame the textbook 
publishers or the testing agencies as the primary culprits. 
They do not want to produce a bad product. They want to sell 
books and tests. To do so, they must avoid controversy. They 
cannot afford to have some group of people, even if it is only 
a handful, picketing at the State textbooks hearings and 
stigmatizing their product as racist or sexist or dangerous or 
extremist. They may not like to have to censor their products, 
but they have to do it to sell them.
    By now, the publishers are so used to excluding stories in 
which women are nurturing mothers and deleting photographs of 
poverty in the Third World that they just assume that there is 
no other way to publish a textbook. This reign of censorship 
and sensitivity is now the way things are done.
    The root cause of this censorship is the current situation 
in which a score of States screen, select, and buy textbooks 
for the entire State. The two most important States in this 
regard, because of their size, are California and Texas. 
Because of the power of these two States, the entire textbook 
publishing industry is a warped market. Instead of a 
marketplace with millions of consumers, the market is dominated 
by the decisions of these two States.
    The consequence of this situation is twofold. First, it has 
provided a convenient bottleneck where pressure groups from 
across the spectrum, whether representing feminist, anti-
evolutionist, or some other assertive groups, can intimidate 
publishers and get them to revise their books. To avoid 
tangling with these groups, publishers have rewritten their 
textbooks and now routinely censor out what they know will be 
objectionable to almost anyone.
    Second, the very expensive, high-stakes nature of the State 
adoption process has accelerated the consolidation of the 
textbook industry. A generation ago, there were many, many 
American textbook publishing companies. In recent years, small 
publishers have gone bankrupt or merged with mega-corporations, 
leaving only four or five big publishing houses dominating a $4 
billion industry.
    When one corporation owns half a dozen different publishing 
companies, it does not have much incentive to keep several 
different competing textbooks in print. In effect, the textbook 
adoption process has diminished competition.
    I would go further and say that the loss of competition has 
also resulted in a loss of quality. Teachers say the same 
thing. I hear it from them frequently. The books are huge, 
stuffed with gorgeous graphics, dazzling to look at, but they 
are dull, dull, dull.
    I do blame the States. The States should abolish the 
textbook adoption process. They should not choose the textbooks 
that the State will pay for. To me, this is akin to saying that 
the Government will give away free tickets to certain movies, 
will pay for certain newspapers, and will allow you to watch 
certain approved TV programs, but anyone who wants to see or 
read something different has to pay for it themselves. I think 
it is wrong.
    The States should abolish this process and allocate the 
States' resources for materials on a per-pupil basis.
    I would like to commend to you today the new review of 
State U.S. history standards by Dr. Sheldon Stern, which was 
released this week by the Thomas B. Fordham Institute, of which 
I am a trustee. I would also like to commend the legislation 
that was introduced by you, Senator Alexander, to sponsor 
teacher training academies in history and other related 
activities.
    I think that anything the Federal Government and State 
governments, as well as universities and private industry, can 
do to improve our teachers' knowledge of history is a very 
welcome improvement.
    Thank you indeed.
    Senator Alexander. Thank you, Dr. Ravitch.
    [The prepared statement of Ms. Ravitch follows:]

                  Prepared Statement of Diane Ravitch

    Mr. Chairman and Members of the Committee, my name is Diane 
Ravitch. I am a historian of education at New York University and have 
held the Brown Chair in Education Policy at the Brookings Institution 
for the past ten years. I served as Assistant Secretary for the Office 
of Education Research and Improvement from 1991-1993, during the 
administration of President George H.W. Bush. Since 1997, I have served 
as a member of the National Assessment Governing Board, to which I was 
appointed by Secretary of Education Richard Riley.
    I have written or edited many books about American education. My 
latest, ``The Language Police: How Pressure Groups Restrict What 
Students Learn,'' was published a few months ago. It is a detailed, 
closely documented study of the way that censorship has changed the 
content of textbooks in history and literature, as well as the passages 
used on standardized tests.
    I wrote this book because of what I learned while serving on the 
National Assessment Governing Board, which oversees national testing in 
many subjects. I discovered that testing agencies, publishing 
companies, State education departments, and the Federal Government 
routinely restrict the use of certain words, phrases, topics, and 
images. The process for screening materials for tests and textbooks is 
called ``bias and sensitivity review.''
    As a result of my study, I found that the censorship of words, 
phrases, topics, and images is widespread throughout the educational 
publishing industry. Stories by well-known authors have been rewritten 
or deleted from standardized tests and from textbooks because a bias 
and sensitivity review committee objects to certain topics or language.
    No one can possibly object to the removal of material that 
expresses bias, but what few people realize today is that the 
educational publishing industry is using a new definition of bias and 
insensitivity that defies common usage. In many instances, words and 
topics that appear in the morning newspaper are routinely removed from 
tests and textbook stories. Many classic American novels and stories--
like Mark Twain's ``The Adventures of Huckleberry Finn'' or John 
Steinbeck's ``Grapes of Wrath''--would have difficulty passing a bias 
and sensitivity review board today.
    The result of the bias and sensitivity review process is to dumb 
down educational materials, to reduce the vocabulary that children 
encounter, and to withhold from students a realistic portrayal of the 
world today.
    Let me offer some examples:
    As a member of NAGB, I saw test passages eliminated because they 
allegedly were biased or insensitive. In one case, the bias committee 
objected to a story because it mentioned Mount Rushmore. The committee 
said that the Indian tribe that lives in the vicinity of that national 
monument considers the monument itself offensive; it recommended that 
the story should be dropped.
    In another case, a true story about a blind young man who climbed 
Mt. McKinley in an ice storm was eliminated. The bias committee said 
that students who had never lived in the mountains couldn't understand 
a story that was set in the mountains; that was considered regional 
bias. They also rejected the story because they said it was demeaning 
to blind people to treat this young man as an inspiring hero; 
blindness, they suggested, should not be treated as a handicap to be 
overcome.
    Just this past summer, a bias review committee in New Jersey 
rejected a short story by the famous African American writer Langston 
Hughes because he used the words ``Negro'' and ``colored person.'' 
Sorry, but those are the words that were appropriate when he was 
writing. The same committee rejected a story by NPR's Garrison Keillor 
because it referred to a student whose mother had died of cancer. The 
committee decided that this comment--set in the middle of an 
autobiographical story--was too frightening for 11th grade students to 
see.
    Every mass-market publisher of textbooks and tests has compiled 
what they call ``bias guidelines'' or ``sensitivity guidelines.'' These 
guidelines describe the words, topics, and images that they will not 
permit writers or illustrators to use. The testing agencies are more 
restrictive than the textbook publishers, but all of them remove words 
and topics that some pressure group is like to object to.
    In Appendix 1 of ``The Language Police,'' I compiled a list of over 
500 words that publishers have told writers and editors to avoid.
    Major publishers, for example, tell writers to be careful about 
using the words ``America'' or ``American'' because they suggest 
``geographical chauvinism.'' They also advise writers not to use the 
word ``brotherhood'' because it is sexist. Several publishers ban the 
word ``Orient.'' And one must never use the words ``manpower'' or 
``primitive'' or ``Congressman.''
    One constant rule for writers and editors is that any word that 
begins or ends with the three letters ``man'' or ``-ess'' is 
unacceptable. As a writer, I almost always use gender-neutral words, 
but I hate the idea that a publisher can tell me that I can never refer 
to mankind or an actress. That choice should be the writer's. When 
David Brinkley died recently, the New York Times ran a tribute to him 
called ``David Brinkley, Anchorman,'' but that headline could not be 
printed in a textbook. When the Academy Awards offers Oscars for Best 
Actress, as they do every year, they are violating the rules of the 
textbook industry.
    When a bias committee encounters words like these, they change them 
or delete them, regardless of the purposes of the author. Textbook 
publishers and testing agencies fault classic literature because 
writers of earlier centuries used words that are today considered 
objectionable. The president of a major testing company told the 
assessment development committee of NAGB that ``Everything written 
before 1970 was either racially biased or gender biased.''
    The pressure groups that demand censorship of textbooks and test 
passages do not come from one end of the political spectrum. They are 
rightwing, leftwing, and every other kind of wing. Anyone with a strong 
objection is likely to get a passage deleted or a story dropped if they 
object loud enough and long enough.
    The story gets worse when you consider the topics that are 
routinely banished from tests and frequently removed from textbooks as 
well. The test contractor who was preparing the voluntary national test 
in reading gave our NAGB committee a package of guidelines that told us 
which topics are unacceptable. Here are a few of them: Scary creatures 
like rats, mice, snakes, and roaches; disease; evolution; expensive 
consumer goods; magic and witchcraft; personal appearance, such as 
height and weight; politics; slavery; racial prejudice; fables; 
Halloween; religion; social problems; violence; someone losing their 
job; catastrophes like earthquakes and fires; poverty; or any 
references to junk food.
    The rationale for excluding so many topics--and this is just a 
sampling--is that unpleasant topics might upset children, and they 
won't be able to do their best on the test. But, in the absence of any 
research to demonstrate the need to banish so many topics, the likelier 
explanation is that these issues upset grown-ups. There are various 
groups that consider these topics highly controversial, and they don't 
want children to be exposed to them. As I show in ``The Language 
Police,'' small groups from very conservative religious backgrounds 
have objected to any mention of evolution, fossils, dinosaurs, witches, 
fantasy, or disobedient children in textbooks or tests. They have 
successfully intimidated publishers and State testing agencies to 
comply with their wishes.
    The Harry Potter books are the most popular books in the United 
States. But they are also the most banned books in the U.S. because 
they prominently feature witches, witchcraft, fantasy, disobedient 
children, and a dysfunctional family. These are themes that publishers 
avoid. For that matter, a trio of witches appears in Shakespeare's 
Macbeth, and there is quite a long tradition of fantasy, witches, 
disobedient children and other forbidden themes in fairy tales and lots 
of other classic literature.
    Yet because of the objections of people who hold strong religious 
and political views, stories that contain these topics are routinely 
screened out of textbooks to protect our nation's children. Are they 
protected? Of course not. They watch television and movies, where they 
see far worse things than witches and dinosaurs. The net result of this 
regime of censorship is simply to make the textbooks and tests banal 
and boring, thus reducing the possibility for getting children excited 
about what they read.
    Now, it is not my intention to blame the textbook publishers or 
testing agencies as the primary culprits. They don't want a bad 
product. They want to sell books and tests. To do so, they must avoid 
controversy. They cannot afford to have some group of people picketing 
at the State textbook hearing and stigmatizing their product as racist, 
sexist, dangerous, or extremist. They may not like to censor their 
books, but they have to do it to sell their books in States that have a 
State adoption process. By now, the publishers are so used to excluding 
stories in which women are nurturing mothers and deleting photographs 
of poverty that they just assume that there is no other way to publish 
a textbook. This reign of censorship and sensitivity is now the way 
things are done.
    The root cause of the censorship that I describe is the current 
situation in which a score of States screen, select, and buy textbooks 
for the entire State. The two most important States in this regard, 
because of the size of their student enrollment, are California and 
Texas. These two States enroll about 20 percent of the nation's student 
population. They call the tune, and the publishers dance.
    Because of the power of these two States, the entire textbook 
publishing industry is a warped market. Instead of a marketplace with 
millions of consumers, the market is dominated by the decisions of 
these two States.
    For a textbook publisher even to compete in California or Texas, 
they must invest millions of dollars upfront in a speculative product. 
If they don't win a contract, they may go under.
    The problem with this situation is two-fold.
    First, it has provided a convenient bottleneck where pressure 
groups from across the political spectrum--whether representing 
feminists, anti-evolutionists, or some other assertive groups--can 
intimidate publishers and get them to revise their books. To avoid 
tangling with these groups, publishers have rewritten their textbooks 
and now routinely censor out what they know will be objectionable to 
any of these groups.
    Second, the very expensive, high-stakes nature of the State 
adoption process has accelerated the consolidation of the textbook 
industry. A generation ago, there were numerous American textbook 
publishing companies. In recent years, small publishers have gone 
bankrupt or merged with megacorporations, leaving only four or five big 
publishing houses dominating a $4 billion industry. When one 
corporation owns half a dozen different publishing companies, it 
doesn't have much incentive to keep several different textbooks in 
print, competing with one another. In effect, the textbook adoption 
process--whereby the State buys texts for all schools in certain 
grades--has diminished competition.
    I would go further and say that the loss of competition among 
textbook publishers has also resulted in a loss of quality. Teachers 
say the same thing. I hear it from them frequently. The books are huge, 
stuffed with glitzy graphics, dazzling to look at, but dull, dull, 
dull. The history books are comprehensive, but dull, dull, dull. They 
are written by committee, edited by committee, choppy, superficial, and 
careful to offend no one. Let me say again that I don't blame the 
publishers. They are operating in the only marketplace that they know. 
Of course they prefer to make a sale to the State of Texas or 
California rather than selling to millions of teachers. It is easier 
for them, and it allows them to say that they are just complying with 
the States' standards by removing certain words, phrases, topics, and 
images. Frankly, I wish the publishers would defend the First Amendment 
by calling attention to any restriction on their freedom to publish. It 
is not good enough, I think, to defend the restrictions by saying that 
they are just responding to the wishes of the marketplace.
    I do blame the States, however. They should abolish the textbook 
adoption process. They should not choose the textbooks that the State 
will pay for. To me, this is akin to saying that the Government will 
give away free tickets to certain movies, and anyone who wants to see 
something different must pay for it themselves.
    Instead they should abolish the State textbook adoption process and 
allocate the State's resources for educational materials on a per-pupil 
basis. Schools and teachers should use that money to buy the books or 
software or whatever they think works best for them. The States set the 
standards, but they should leave the schools and teachers free to meet 
them as they think best.
    On the subject of State standards, I respectfully commend to the 
committee's attention a brand new study of State U.S. history 
standards, off the presses today, written by Dr. Sheldon Stern, who 
served for many years as the historian of the John F. Kennedy Library 
in Boston. Dr. Stern evaluated the standards of the 48 States that have 
them, plus the District of Columbia, on their handling of U.S. 
history--the first time this has ever been done by a historian. He 
found that six States--Indiana, New York, Alabama, Arizona, California 
and Massachusetts--have established outstanding academic standards for 
U.S. history, but that eight have weak standards in this key subject; 
fully 23 States have U.S. history standards that Dr. Stern terms 
``ineffective''. Considering the central role that statewide academic 
standards play in determining what our teachers teach and what our 
children learn, this bleak picture deserves your attention. Dr. Stern's 
study was prepared under the aegis of the Thomas B. Fordham Institute, 
of which I am a trustee.
    Later this year the Fordham Institute will release a new study 
under my direction, which evaluates textbooks in U.S. history and world 
history. A dozen prominent historians cooperated in preparing this 
study.
    I testified earlier this year on behalf of the legislation prepared 
by Senator Lamar Alexander to sponsor teacher training academies in 
history and other valuable activities. Anything that the Federal and 
State Governments, as well as universities and industry, can do to 
improve the knowledge of our teachers is a welcome improvement.
    Education is a complicated, multi-faceted activity. It has many 
moving parts. We certainly need well-prepared teachers. We also need 
excellent textbooks, tests, and standards. As I tried to show in my 
book, ``The Language Police,'' and as Dr. Sheldon Stern shows in his 
review of State history standards, we do not have them now.
    Thank you for your attention.

    Senator Alexander. Mr. Sewall?
    Mr. Sewall. My name is Gilbert Sewall, and I am pleased to 
be here today.
    I think that what we are looking at today is a matter of 
extreme importance educationally.
    For 14 years, I have been the director of the American 
Textbook Council, an independent, New York-based educational 
organization that reviews history textbooks and social studies 
curricula. The American Textbook Council is dedicated to 
improve instructional materials and civic education nationwide.
    Since 1989, the Council has identified many problems with 
history textbooks. In American Textbook Council reports and in 
persuasive books such as Sandra Stotsky's ``Losing our 
Language'' and Diane Ravitch's ``The Language Police,'' 
textbook critics reached the same conclusions--textbook content 
is thinner and thinner, and what there is is increasingly 
deformed by identity politics and pressure groups.
    The first history textbook problem is what educators, 
critics and journalists informally refer to as ``dumbing 
down.'' Many history textbooks reflect lower sights for general 
education. They raise basic questions about sustaining literacy 
and civic understanding in a democratic polity and culture. 
Bright photographs, broken format, and seductive color 
overwhelm the text and confuse the page. Typeface is larger and 
looser, resulting in many fewer words and much more white 
space. The text disappears or gets lost. Among editors, phrases 
such as ``text-heavy,'' ``information-loaded,'' ``fact-based,'' 
and ``nonvisual'' are negatives. A picture, they insist, tells 
a thousand words.
    This declining textbook quality is neither a left nor right 
issue. Publishers are adjusting to short attention spans and 
nonreaders. Too many children cannot or do not want to read 
history, which contains concrete facts and complicated 
concepts, reading that requires some facility with language. So 
textbooks become picture and activity books instead.
    The second history textbook problem--increasing content 
bias and distortion--involves political judgments. The critique 
of distorted content in history is of course a problematic one. 
One person's distortion is another's correction. Yet the list 
of textbook activists grows. It spans gender, ethnic, 
religious, environmental and nutrition causes that want to use 
textbooks to advance their agendas. The defenders of the 
revised history textbooks claim that textbooks used to be 
racist, sexist, ethnocentric, and jingo; now, they are not. 
This is a political half-truth, a spurious and calculated 
claim, but it has been an effective one politically.
    A large part of the problem rests with the textbook 
publishers. The consolidation of educational publishing from a 
domain in which many independent, competing companies created 
and sold textbooks has changed the field. Today, four 
defensive, revenue-driven, multinational corporations--Pearson, 
Houghton Mifflin, Harcourt and McGraw-Hill--offer fewer and 
fewer standard textbooks for States and teachers to choose 
from.
    None of these publishing giants shows the least interest in 
innovation, change, or offering books that come closer to 
meeting the wishes of textbook critics and State-level 
curriculum reformers. Instead, publishers cater to pressure 
groups, for whom history textbook content is an extension of a 
broader political or cultural cause. They make books whose 
content is meant to suit the sensitivities of groups and causes 
more interested in self-promotion than in historical fact, 
scholarly appraisal, or balance. They are, more likely than 
not, listening to the wrong voices.
    The collaboration of educational publishers with pressure 
groups and textbook censors is disturbing. Determining what 
history children will learn, who will be heroes and villains, 
what themes will dominate, and what messages will be sent are 
crucial subtexts in civic education. At worst, biased 
instructional materials are undermining students' appreciation 
for America and citizenship.
    In American history, establishment of responsible 
government, development of a national economy, extension of 
democracy to blacks and women, influence in world affairs, a 
rising standard of living for most if not all, seems the main 
casualty of the multicultural idea.
    Massachusetts, Virginia, and California have all produced 
strong history standards. Still, a gulf exists between these 
State standards and textbook content. California adopts 
textbooks through a State-level process. The most recent 
history adoptions in California, 1999, and Texas, 2002, 
indicate that these two key States are no longer really 
selective about the history textbooks that they adopt--nor can 
they be given the problem of four mega-publishers that exert 
iron control over the market.
    Publishers claim that they are only responding to State 
pressure and State standards. They say the State adoption 
process is already an open public process. In fact, textbooks 
that States adopt may conform minimally and mechanically to 
State standards. State and local textbook adoption procedures 
rarely, if ever, address matters of style and textual quality. 
The main point of State review as far as I can discern is to 
comply with detailed guidelines for representation and to give 
pressure groups a chance to vent and bully.
    Publishers should be producing cheaper books that are more 
text-centered, simpler in design and more honest in content. 
They are failing to do so.
    Meanwhile, a growing number of concerned educators and 
parents of all political stripes are asking for history 
textbooks that are easy to ready and understand, that tell a 
story, that are compact, legible and accurate, that do not 
``jump around.'' They want history textbooks free of the 
political pressure groups willing to corrupt schoolbook history 
in order to advance their single interest. The four giants in 
educational publishing are ignoring these commendable efforts 
in order to maximize their revenues.
    Thank you.
    Senator Alexander. Thank you very much.
    [The prepared statement of Mr. Sewall follows:]

                  Prepared Statement of Gilbert Sewall

    Mr. Chairman and Members of the Committee, my experience with 
history textbooks and publishing goes back some 25 years. In 1978, I 
was the co-author of an American history textbook, After Hiroshima: The 
U.S.A. since 1945. For 14 years, I have been director of the American 
Textbook Council, an independent New York-based educational 
organization that reviews history textbooks and social studies 
curricula. It is dedicated to improving instructional materials and 
civic education nationwide.
    Since 1989, the Council has identified many problems with history 
textbooks. In American Textbook Council reports and in persuasive books 
such as Sandra Stotsky's Losing Our Language and Diane Ravitch's The 
Language Police, textbook critics reach the same conclusions. Textbook 
content is thinner and thinner, and what there is, is increasingly 
deformed by identity politics and pressure groups.
    The first history textbook problem is what educators, critics and 
journalists informally refer to as ``dumbing down.'' Many history 
textbooks reflect lowered sights for general education. They raise 
basic questions about sustaining literacy and civic understanding in a 
democratic polity and culture. Bright photographs, broken format and 
seductive color overwhelm the text and confuse the page. Typeface is 
larger and looser, resulting in many fewer words and much more white 
space. The text disappears or gets lost. Among editors, phrases such as 
``text-heavy,'' ``information-loaded,'' ``fact-based,'' and ``non-
visual'' are negatives. A picture, they insist, tells a thousand words.
    This declining textbook quality is neither a right nor a left 
issue. Publishers are adjusting to short attention spans and non-
readers. Too many children cannot or do not want to read history, which 
contains concrete facts and complicated concepts, reading that requires 
some facility with language. So textbooks become picture and activity 
books instead.
    The second history textbook problem--increasing content bias and 
distortion--involves political judgments. The critique of distorted 
content in history is, of course, a problematic one. One person's 
distortion is another's correction. Yet the list of textbook activists 
grows. It spans gender, ethnic, religious, environmental and nutrition 
causes that want to use textbooks to advance their agendas. New heroes 
in leading textbooks--Mansa Masu, Anne Hutchinson, Rigoberta Menchu, 
Chico Mendez, and Anita Hill--are designed to advance a political 
agenda that highlights and ennobles people of color, peace advocates, 
anti-colonialists, environmentalists, and wronged women. One-time 
historical giants like Julius Caesar and Marcus Aurelius, Copernicus 
and Magellan, George Washington and Napoleon, Charles Darwin and 
Sigmund Freud, Albert Schweitzer and Winston Churchill play supporting 
roles.
    The defenders of the revised history textbooks claim that textbooks 
used to be racist, sexist, ethnocentric, and jingoistic, and now 
they're not. This is a political half-truth, a spurious and calculated 
claim, but it has been an effective one.
    A large part of the problem rests with the textbook publishers. The 
consolidation of educational publishing from a domain where many 
independent, competing companies created and sold textbooks has changed 
the field. Today, four defensive, revenue-driven multinational 
corporations--Pearson, Houghton Mifflin, Harcourt and McGraw-Hill--
offer fewer and fewer standard textbooks for States and teachers to 
choose from.
    None of these publishing giants shows the least interest in 
innovation, change or offering books that come closer to meeting the 
wishes of textbook critics and State-level curriculum reformers. 
Instead, publishers cater to pressure groups for whom history textbook 
content is an extension of a broader political or cultural cause. They 
make books whose content is meant to suit the sensitivities of groups 
and causes more interested in self-promotion than in historical fact, 
scholarly appraisal, or balance. They are, more likely than not, 
listening to the wrong voices.
    Unlike in the college textbook market, where authors write their 
own books and market shares for each textbook are small, ``el-hi'' 
history textbook authors have such minimal control over their product 
that authorship is to be doubted. The big names become involved--i.e., 
lend their names to the enterprise--for the money. Publishers have 
shrunk their editorial and production staffs, moving toward a writing-
for-hire production system and abandoning the royalty-based author 
system. Some new secondary-level history textbooks have no authors at 
all. Authors have been replaced by a long list of contributors, 
censors, and special pleaders, concerned first of all that history 
meets the standards of multiculturalism.
    When multiculturalism promised a reformed social studies curriculum 
of ``inclusion'' in the 1980s and early 1990s, its almost universal 
appeal lay in its pledge to broaden the nation's understanding of 
minorities and ordinary people who had been unduly ignored by 
``presidential'' and ``elitist'' history. Thus multiculturalism calls 
for a reformed history of new voices with a distinct political subtext. 
The American epic is transformed into a fight and triumph over white, 
elite, patriarchal, ``European'' oppression. From the age of 
exploration to the present day a slanted, anti-traditionalist, shaming 
story of oppression runs as a thematic thread.
    National history standards developed in 1993 and 1994 provided 
outlines and thematic cues for social studies publishers involved in 
textbook content revision. These standards ratified historical content 
and themes that social studies editors had been incorporating into 
textbooks for longer than a decade, changes often being made under 
activist pressure. But content makeovers had occurred unbeknownst to 
most people except textbook publishers, curriculum specialists, and 
political activists, which is the main reason they were greeted with 
such public alarm and condemnation in the Senate in 1995. The historian 
Gordon S. Wood of Brown University said of these history disputes: ``So 
what might seem to be a petty academic debate about the nature of 
historical writing in fact has momentous implications for the kind of 
nation that we Americans want to be.''
    The collaboration of educational publishers with pressure groups 
and textbook censors is disturbing. Determining what history children 
will learn, who will be heroes and villains, what themes will dominate, 
and what message will be sent are crucial subtexts in civic education. 
At worst, biased instructional materials are undermining students' 
appreciation for America and citizenship. In American history--
establishment of responsible government, development of a national 
economy, extension of democracy to blacks and women, influence in world 
affairs, a rising standard of living for most if not all--seems the 
main casualty of the multicultural idea.
    Massachusetts, Virginia and California have all produced strong 
history standards. Still, a gulf exists between State standards and 
textbook content. California adopts textbooks through a State-level 
process. The most recent history adoptions in California (1999) and 
Texas (2002) indicate that these two key States are no longer really 
selective about the history textbooks that they adopt. Nor can they be, 
given the problem of four mega-publishers that exert iron control over 
the market.
    Publishers claim that they are only responding to State pressure 
and State standards. They say the State adoption process is already an 
open, public process. In fact, textbooks that States adopt may conform 
minimally and mechanically to State standards. State and local textbook 
adoption procedures rarely, if ever, address matters of style and 
textual quality. The main point of State review, as far as I can 
discern, is to comply with detailed guidelines for representation and 
to give pressure groups a chance to vent and bully.
    Publishers should be producing cheaper books that are more text-
centered, simpler in design, and more honest in content. They are 
failing to do so.
    Meanwhile, a growing number of concerned educators and parents of 
all political stripes are asking for history textbooks that are easy-
to-read and understand, that tell a story, that are compact, legible 
and accurate, that do not ``jump around.'' They want history textbooks 
free of the political pressure groups willing to corrupt schoolbook 
history in order to advance their single interest. The four giants in 
education publishing are ignoring these commendable efforts in order to 
maximize revenues. Thank you.

    Ms. Stotsky. Thank you very much for the privilege of being 
here.
    I am speaking today first as an administrator in the 
Massachusetts Department of Education, responsible for the 
development of all of our basic standards in the past several 
years, revisions of earlier documents. I am also speaking as an 
educational researcher for many, many years and am familiar 
with contents of reading programs, curricular materials in all 
subject areas, and materials that are used for professional 
development across the curriculum, about which I will have some 
specific remarks toward the end of my remarks here.
    I am here to suggest that an understanding of our basic 
political principles and our civic identity as a people are at 
stake in the conflicts taking place today over State history 
standards and textbooks. Academically sound and strong history 
standards will not completely solve the problem of how to 
strengthen the study of history in K-12 and promote civically 
meaningful student achievement, but they will help a great 
deal.
    Today, for example, the traditional U.S. history course, 
with its in-depth study of the Founding and the Framers, has 
almost disappeared under the weight of ``multiple 
perspectives.'' It has become, a course in social, not 
political, history. The result is uninformed civic 
participation, if any at all.
    Today, many educators from my experience in Massachusetts, 
seek to use study of U.S. and world history to create hostility 
to the U.S. in particular, to Western values in general, and to 
eliminate a national identity for Americans. They want 
Americans to see themselves as global or world citizens, with a 
cross-national racial, ethnic, or gender identity as their 
primary identity. I enclose a recent resolution by the Boston 
City Council as evidence for this statement.
    In Massachusetts, history standards were mandated in the 
Education Reform Act of 1993. After 3 years of battles, the 
first standards were approved in 1997. At that time, the main 
content charge by critics was that it was ``eurocentric.'' The 
Boston Globe praised it for precisely that reason.
    In 2001, we began to revise it, and I was now the 
administrator in the department responsible for that revision. 
The revision was mandated by law and was also needed because of 
various flaws in the 1997 document. The flaw was not because it 
was eurocentric in orientation; there were other problems with 
the standards.
    We tried to correct all of the flaws that we saw, and we 
all felt that the new 2002 document, which I have a copy of 
here, addresses all those limitations. It was fully supported 
by the commissioner, the board of education, the Governor's 
office, and key legislators. It had broad bipartisan support in 
Massachusetts. We were very happy about that.
    Unlike most other States' documents, it provides teachers 
with only one set of content standards to address at each grade 
level, together with related concepts and skills, and addresses 
the basic subjects of the history and social science 
curriculum--economics, geography, and civics or government.
    To unify this document across the grades and across both 
U.S. and world history, the document suggests a few overarching 
themes on the origins and development of democratic principles, 
democratic institutions, and individual freedoms. It is not a 
politically correct document. Its standards provide the basis 
for an honest curriculum about the U.S. and the rest of the 
world.
    During the process and before the vote on the document, 
there were many critics and many charges and many attempts to 
undo or redo certain aspects of the document. One of the major 
charges was a concern about the nature of the early standards 
having a strong emphasis on children's identity as American 
citizens. Some critics felt that this was going to be 
``offensive'' to some children--that was a word that was used.
    There were other little anecdotes that would give you some 
clues about the problems with even the geography curriculum. We 
had a battle over where Mexico is. I finally had to have 
someone call the Mexican Embassy to ask where the Mexicans 
think Mexico is. It was not in Latin America. They did not want 
American children to see it in Middle America, Central America, 
or Latin America. North America is what we were told by the 
vice consul.
    We had a problem about where Afghanistan was after 9/11. 
Some members of the committee wanted to take it out of the 
Central Asian republics and put it in the Middle East. We said 
no--it was going to stay where it had been for thousands of 
years--one of the Central Asian republics.
    So these were minor little skirmishes along the way to 
getting these standards. Critics came out with larger kinds of 
concerns. They were very unhappy about the omission of 
anthropology, sociology, and psychology in the document, which 
was revising an old quarrel between social studies and history 
educators. They did not like our overarching themes because 
they did not like the current themes on the evolution of 
democratic principles and personal freedoms but could not quite 
say that directly. They charged the document as being too 
prescriptive, too many facts, too many standards, promoting 
``drill kill,'' rote memorization, leaving little room for 
creative teaching--the usual way to dismiss a document. They 
complained there were not enough standards on Africa, Asia, and 
South America before the 15th century. They found the document 
too Eurocentric and proposed instead and provided details for 
an ``Islamocentric'' curriculum--and I have copies of that as 
well. They perceived the standards we did have on Islam as 
biased if not racist, because they addressed problematic as 
well as positive aspects of Islamic civilization.
    The critics did not succeed in getting basic changes and 
did not delay the vote. There is a question of how soon the 
document's standards can serve as a basis for assessment, and 
one of the chief critics who was at that time head of the 
superintendents' association keeps threatening to come up with 
an alternative set of standards and literally keeps trying to 
discourage the schools from implementing our standards.
    The standards are very important to have, but I say that 
they will not address the whole problem because we have 
teachers who would like to address the new standards but do not 
have adequate materials to use. Many of course lack adequate 
knowledge of U.S. and world history themselves and are at the 
mercy of grossly misleading curricular materials, if not simply 
inadequate.
    But in my judgment, the most serious problem we face with 
respect to the curricular materials does not stem from the 
textbooks produced by mainstream educational publishers but 
from the materials and consultants provided by professional 
development centers in our schools of education and by 
nonprofit organizations for use in the endless stream of 
professional development workshops that teachers are mandated 
to take. These centers and nonprofits tend to be ideologically 
driven, often have personal contacts with school personnel that 
are stronger than mainstream educational publishers have, and 
they tend to bypass public scrutiny altogether--the scrutiny 
that textbooks receive.
    One Massachusetts organization, a nationally active one, is 
promoting in its workshops and curricular materials for 
professional development a moral equivalence between Nazi 
Germany and the U.S. in materials on the American eugenics 
movement, implying that the U.S. is responsible not only for 
Hitler's racial policies but ultimately for the Holocaust. 
Another is promoting reparations for slavery in its materials.
    These organizations and centers are regular partners in 
proposals with school districts for State and Federal grants.
    The other problem is that our undergraduate history 
departments which produce the prospective history teacher do 
not tend to teach much political or intellectual history to 
prospective history teachers these days or, as I am told by 
many historians, they do not tend to hire professors with 
specialties in U.S. political history. Therefore, we end up 
with teachers who now need this endless stream of professional 
development because they have not had the adequate background 
in their undergraduate years and have inadequate text materials 
to deal with.
    Academically sound materials matter because they guide 
academically honest and conscientious teachers and Statewide 
assessments. They will guide publishers of curricular materials 
and textbooks in States where there is accountability. They 
also serve, as they do in Massachusetts, as the basis for 
licensing regulations and tests for prospective history and 
government teachers. This is a very important area, because 
there is the basis for examining what the prospective teacher 
brings to the classroom. And they can serve as the basis--and 
this is a recommendation I am making--for judging the quality 
of undergraduate history and political science courses in 
institutions that prepare prospective teachers if Federal 
funding is tired to high cut scores on teacher tests in history 
and government or on college exit exams that reflect the 
academic and civic content of good history and civics standards 
for K-12. Thank you very much.
    Senator Alexander. Thank you, Ms. Stotsky.
    [The prepared statement of Ms. Stotsky follows:]

                  Prepared Statement of Sandra Stotsky

    Mr. Chairman and Members of the Committee, I am here today to 
suggest that an understanding of our basic political principles and our 
civic identity as a people are at stake in the conflicts taking place 
today over State history standards and history textbooks or other 
curriculum materials. Academically sound and strong history standards 
will not completely solve the problem of how to strengthen the study of 
history in K-12 and promote civically meaningful student achievement. 
But they will help a great deal. I speak as the administrator in the 
Massachusetts Department of Education responsible for the development 
of the 2002 Massachusetts History and Social Science Curriculum 
Framework. I also speak as an active participant in local community 
life. I served as an elected trustee of my public library for 14 years 
and as an elected Town Meeting Member for 10 years. I also served as 
president of my local chapter of the League of Women Voters. I fully 
understand the need for informed civic participation and community 
service to make self-government meaningful.
    Civic education has typically taken place through the history 
curriculum in units on local and State history in the early grades, a 
1-year course on U.S. history usually in grade 11, and a middle school 
course in State and Federal Government. Over the past 100 years, 
however, there has been a steady decline in the teaching of history 
through the grades. During the early decades of the twentieth century, 
the social studies--a mix of history, political science, geography, 
civics, anthropology, sociology, psychology, and current events--
emerged and steadily gained ascendance. As a school subject, it has 
always had participatory goals, but it has always been academically 
erratic in approach because it lacks a clear disciplinary framework. 
And the results speak for themselves.
    Today the traditional U.S. history course, with its in-depth study 
of the Founding and the Framers, has almost disappeared under the 
weight of ``multiple perspectives.'' It has become a course in social 
not political history, leaving teachers little time to help students 
understand the historical and philosophical basis for, as well as 
contemporary applications of, our political principles and procedures. 
The result is uninformed civic participation, if any at all. Although 
some of the ignorance may be dispelled by a grade 12 course in U.S. 
Government, only 17 percent of the high schools in Massachusetts, for 
example, require such a course for graduation.
    It is not easy today for States to develop academically sound and 
civically responsible history standards. Many educators (and others) 
seek to use study of U.S. and world history to create hostility to the 
U.S. in particular, and to Western values in general, and to eliminate 
a national identity for Americans. They want Americans to see 
themselves as ``global'' or ``world'' citizens, with a cross-national 
racial, ethnic, or gender identity as their primary identity. (e.g., 
see the attachment: A recent Resolution by the Boston City Council on 
how Columbus Day is to be celebrated in the future.) No help is 
available from national standards because those produced by the 
National Council for the Social Studies and the National Center for 
History in the Schools at UCLA were and remain ideologically biased, 
causing State-by-State battles over State standards.
    In Massachusetts, statewide history standards were mandated in the 
Education Reform Act of 1993-1994. After a 3-year series of battles, 
the first set of standards was approved in 1997 by the Board of 
Education. At that time, critics charged it with being ``Eurocentric,'' 
but the Boston Globe praised it for precisely that reason. The 
Department of Education began revision of the 1997 document in 2001. 
Revision was mandated by law and was badly needed because of major 
problems with the 1997 curriculum framework, but not because of its 
``Eurocentric'' orientation.
    To begin with, the 1997 document lacked specific grade by grade 
content standards. What it did offer as standards were four separate 
sets of statements for the study of history, geography, economics, and 
civics/government for 4-year grade spans. These statements were chiefly 
expressions of broad intellectual processes or academic goals. Although 
the document contained excellent lists of core topics and commonly 
taught subtopics for U.S. and world history, these topics were not 
written in the form of standards nor arranged developmentally. Nor did 
the document require a list of seminal documents taught to all 
students. Its fundamental flaw was that the standards it provided for 
the grade 10 test required for graduation were in world, not U.S., 
history.
    The 2002 curriculum framework addresses all the limitations of the 
1997 document and is fully supported by the Commissioner of Education, 
the Board of Education, the Governor's Office, and some key 
legislators--i.e., broad bipartisan support. At most grade levels, 
recognized historical periods in U.S. or world history serve to 
organize history standards reflecting the core topics of the 1997 
document but integrating the relevant content of geography, civics, and 
economics. Thus, unlike most other States' documents, this document 
provides teachers with only one set of content standards to address at 
each grade level, together with related concepts and skills. At the 
high school level, the document provides standards for two continuous 
years of study of U.S. history. These standards are to serve as the 
basis for the test required for graduation. To unify study across the 
grades and across both U.S. and world history, the document suggests a 
few overarching themes on the origins and development of democratic 
principles, democratic institutions, and individual freedoms. This is 
not a politically correct document. Its standards provide the basis for 
an honest curriculum about the U.S. and the rest of the world.
    The U.S. history standards: (1) emphasize American history, 
geography, and who we are as a people in the early grades; (2) present 
a balanced view of the Puritans and the development of our educational, 
political, and economic institutions in the Colonial period; (3) offer 
strong standards on the Framers and the Founding and on our political 
principles and institutions, their origins and evolution, in grades 3-5 
and high school; (4) stress the Founding as politically revolutionary, 
not as a reflection of the thinking of slave-owning sexists; (5) 
require reading of a variety of seminal U.S. political documents in 
high school; and (6) expect students to understand the multi-ethnic, 
multi-racial, and multi-religious nature of the people of the U.S., 
with particular reference to the history of African Americans.
    The world history standards: (1) clarify the roots of Western 
Civilization (a moral code stressing individual worth and personal 
responsibility, and the origins of democratic institutions and 
principles); (2) address the presence, nature, and history of slavery 
in non-Western as well as Western cultures; (3) address enough British 
and European history to ensure coverage of the history of democratic 
institutions/principles there and in the U.S.; (4) provide for 
systematic learning of world geography; (5) expand coverage of Islamic 
history because of Islam's role in shaping African and Indian/Southeast 
Asian history and the problems in Muslim-dominant countries today; (6) 
limit coverage of early Japanese, Korean, Chinese, and Indian history, 
as well as native cultures in the Western hemisphere and in Africa, to 
avoid a mile-wide, inch-deep curriculum and to address teachers' 
criticisms of the 1997 document; and (7) eliminate comparative study of 
world religions in the elementary and middle grades because of age-
inappropriateness for meaningful comparisons.
    Before the vote on the document, the critics--chiefly social 
studies or multicultural educators--set out a number of complaints. (1) 
They quarreled with the omission of anthropology, sociology, and 
psychology, and a lack of encouragement of political activism--reviving 
the old quarrel between social studies and history educators. (2) They 
claimed the document lacks ``overarching'' themes because they don't 
like the current overarching themes on the evolution of democratic 
principles and personal freedoms. (3) They charged that the document is 
too ``prescriptive,'' has too many facts and too many standards for 
each grade, promotes drill and kill and rote memorization, and leaves 
little room for ``creative'' teaching. (4) They complained there aren't 
enough standards on Native Indians and on Africa, Asia, and South 
America before the 15th century. (5) They found the document too 
Eurocentric and proposed, instead, and provided details for, an 
Islamocentric curriculum. And (6) they perceived the standards on Islam 
as ``biased'' if not ``racist'' because they addressed problematic as 
well as positive aspects of Islamic civilization (such as asking 
students to learn about the trans-African slave trade to the Middle 
East and to explain why Islamic societies failed ``to keep pace'' with 
Europe after 1500).
    Who were the critics? The chief critics were (1) a superintendent 
who at the time was head of the Massachusetts superintendents' 
association and was once head of ``Educators for Social 
Responsibility'' and (2) a network of educators and politicians 
spanning Harvard's Center for Middle Eastern Studies, Boston 
University's African Studies Center, an organization called Primary 
Source providing consultants and curriculum materials to the schools, 
and the Boston City Council.
    These critics have used a variety of strategies, first to try to 
delay the vote on the standards, then, after the vote, to try to 
distort the State assessments to be based on them and to delay 
implementation of the standards by the schools. In the final stage of 
preparing the document for a vote, the head of the superintendents' 
association sent inaccurate information about the document to all the 
other superintendents in the State, asking for their signatures on a 
petition to send to the Department seeking delay and major revisions 
before Board approval. Both sets of critics requested non-public 
meetings with the chairman of the Board, the Commissioner, and/or 
Department staff to present the changes they wanted in the final draft. 
Several critics communicated regularly with some Department of 
Education staff (through telephone calls and requests for meetings) to 
get changes made--almost to the point of harassment. Almost no changes 
were made because the requests were outside of a public process, the 
suggestions were unsound or unacceptable, and most teachers/
administrators did not want the vote delayed (and did not support the 
critics).
    After Board approval of the document, allies of the critics got 
themselves placed on Assessment Committees responsible for developing 
future State tests in history. They sought but failed to get someone in 
their camp in charge of these assessments at the Department. They did 
help to get a delay to 2009 for the first statewide assessments to be 
based on the new standards on the grounds that teachers need all that 
time to put new curricula in place. In addition, the superintendent who 
was head of the superintendents' association keeps threatening to come 
up with an alternative set of standards and keeps trying to discourage 
the schools from implementing the standards.
    We face other problems in implementing these standards. Many 
schools do not have enough money to buy new textbooks or other 
materials to address topics they have not been teaching. Teachers who 
want to address the new standards have few sound textbooks to use. Many 
lack adequate knowledge of U.S. and world history themselves--and are 
at the mercy of inadequate or often grossly misleading curriculum 
materials. In my judgment, the most serious problems we face with 
respect to curriculum materials in history, geography, and civics do 
not stem from the textbooks produced by mainstream educational 
publishers but from the curriculum materials and consultants provided 
by ``professional development'' centers in schools of education and by 
non-profit organizations for use in the endless stream of professional 
development workshops teachers are mandated to take. These centers and 
non-profits tend to be ideologically driven, often have better personal 
contacts with school personnel than do mainstream educational 
publishers, and by-pass the public scrutiny that textbooks may receive. 
They can easily politicize the entire curriculum in the vacuum created 
by neutered textbooks. One Massachusetts-based but nationally active 
organization is promoting a moral equivalence between Nazi Germany and 
the U.S. in its workshops and materials on the American eugenics 
movement, implying that the U.S. is responsible for Hitler's racial 
policies and, ultimately, the Holocaust. The Massachusetts-based 
organization that is part of the network of critics is pushing 
reparations for slavery in its curriculum materials. Organizations and 
centers like these are regular partners in proposals with school 
districts for State and Federal grants.
    The long delay before the first statewide tests in 2009 leaves many 
Massachusetts schools with little motivation to address the new 
standards quickly, especially if their K-12 coordinator or 
superintendent is opposed to them and hopes for political changes in 
the State by then. Worse yet, undergraduate history departments do not 
tend to teach much political or intellectual history to prospective 
history teachers these days or hire professors with specialties in U.S. 
political history to teach it. This major problem should be addressed 
in the Reauthorization of Higher Education Act. Unfortunately, most 
parents, school boards, and other citizens do not know how to use State 
standards in constructive ways to promote more academic curricula in 
their own schools.
    Academically sound and explicit history standards matter a great 
deal. They serve as a guide to academically honest teachers and 
statewide assessments. They guide publishers of curriculum materials 
and textbooks in States where the schools must teach to the standards 
because there is accountability for student learning that is tied to 
State tests based on the standards. They also serve (as they do in 
Massachusetts) as the basis for licensing regulations and tests for 
prospective history and government teachers. And they can serve as the 
basis for judging the quality of undergraduate history and political 
science courses in institutions that prepare prospective teachers if 
Federal funding is tied clearly to high cut scores on teacher tests in 
history and government or on college exit tests that reflect their 
academic and civic content. Thank you.

                               Resolution

                          Boston City Council

                                 (2003)

    Whereas, throughout its history the City of Boston has been a 
community of immigrants from places all over the globe who have been 
attracted to its economic opportunities, world-class cultural and 
educational institutions, and its openness to new ideas and peoples; 
and
    Whereas, the City of Boston has, in turn, benefited the global 
community through the contributions of its multi-ethnic citizenry to 
democratic ideals and progressive innovations in science, theology, 
medicine, governance, human rights, the arts, and numerous other 
fields; and
    Whereas, the Boston Public Library, the oldest publicly supported 
municipal library in America, is inaugurating a new map exhibit 
entitled ``Faces and Places'' that celebrates the diversity of Boston's 
citizenry and the development of the rich texture of its neighborhood 
communities over the years; and
    Whereas, The Mary Baker Eddy Library for the Betterment of 
Humanity, Boston's newest library open to the general public, is 
inaugurating a new exhibit in its world-famous Mapparium entitled 
``Words for the World'' that features the voices of children sharing 
their grandest ideas and hopes for the world; and
    Whereas, it is entirely fitting and proper at this point in our 
history to recognize the interconnectedness of our municipal community 
with the global community and to honor specifically the unique role of 
``Boston in the world and the world in Boston;''
    Therefore, Be It
    Resolved: That the Boston City Council, in meeting assembled, 
declares that October 11, 2003, and hereafter every Saturday of the 
Columbus Day weekend be ``World Citizens Day'' in the City of Boston 
and calls upon its citizens to participate in such community activities 
as are appropriate to the occasion.

       How Study of the Holocaust Is Turning America into Amerika

                             SANDRA STOTSKY

    (To be published in Understanding Anti-Americanism: Origins, 
Symptoms, and Consequences, Paul Hollander, Editor, Chicago: Ivan Dee, 
Spring 2004 (Not to be cited or quoted from without permission))
    About a decade ago, I gave an invited talk at a session of the New 
England Association of Teachers of English (NEATE). In it, I criticized 
a growing tendency by English teachers and literature anthologies to 
use literature about the Holocaust for implying similarities between 
Nazi concentrations camps and the internment camps for the Japanese 
Americans during World War II and ignoring differences. In the question 
and answer period following my talk, several teachers in the audience 
expressed great concern about my remarks. They believed their students 
should see ``the essential similarities'' between Nazi concentration 
camps and the internment camps for Japanese Americans and felt that any 
discussion of differences would be ``a whitewash.''
    But shouldn't students see a difference, I suggested, between an 
experience in which people left a confinement alive and in good health 
and one in which they left in the form of smoke and ashes? More 
important, I added, shouldn't they consider why there were differences 
and how our political principles and institutions might account for 
them?
    Showing some annoyance at my questions, these teachers professed 
that they did not see the differences as significant. In addition, they 
encouraged their students to see similarities between Nazi 
concentration camps and America's ``concentration camps'' for Native 
Americans, and between the European Holocaust and the ``Holocaust'' 
perpetrated by European explorers and settlers on these peoples through 
the introduction of deadly contagious diseases.
    These teachers had a particular moral point of view about Americans 
that they wanted to inculcate in their students, and they clearly did 
not want their students' judgments colored by any ambiguity. We have no 
way of knowing exactly how successful they and teachers like them have 
been. But many educators, especially in the social studies, have made a 
mammoth effort in the past two decades to use study of the Holocaust to 
make students think that their country's history resembles the history 
of the Nazis and that there is little difference between most white 
Americans and the Nazis. Most of them probably believe they are helping 
their students understand the evils of racism and intolerance, but the 
``lessons'' they have guided students to extract from their study of 
the Holocaust may be one of the major sources of anti-American 
attitudes in education.
    This essay describes how literature about the Holocaust is being 
used in an increasing number of schools in this country--and more 
recently in Europe--to imply a moral equivalence between Nazis and 
white Americans, and to cultivate a negative attitude toward white 
Americans, American citizenship, American history, and American 
political institutions. Nothing could more effectively delegitimate 
American society than to encourage young students to believe that it 
can be compared with Nazi Germany. Other features of current history 
curricula or history textbooks contribute to this goal, such as an 
emphasis on the Framers of the Constitution as slaveholders or the near 
absence of information on racism and slavery in non-Western 
civilizations, but none is as poisonous (or as profoundly ironic) as 
the effort to use the literature about the Holocaust for this purpose. 
However, the efforts to do so, both in this country and abroad, are not 
well-known to those outside of K-12, and they are rapidly increasing in 
method and sponsorship. Indeed, the study of the Holocaust has recently 
begun to be used with a new and diabolical twist--to encourage students 
to view the U.S. as ultimately responsible for the Holocaust.

Moral Equivalence in the English Class

    Leading school literature anthologies published during the 1990s 
imply moral equivalence in a variety of imaginative ways.\1\ Most 
often, the literary context for a selection on the Holocaust is used 
for this purpose. For example, in its grade 8 anthology, Prentice 
Hall's 1994 Literature pairs the play based on Anne Frank's diary with 
a play based on Virginia Hamilton's The House of Dies Drear. The latter 
play centers on a mysterious old house in Ohio whose underground 
tunnels and caves were used by its wealthy abolitionist owner over 100 
years ago to help runaway slaves. The two plays are implicitly linked 
by the central importance of the house in each play--in both cases a 
house that sheltered people needing protection from racists who would 
destroy their freedom if not their lives. They are explicitly linked by 
two pages entitled ``Multicultural Connection.'' These pages describe 
the rise and fall of Adolph Hitler, explain the term ``Holocaust,'' and 
provide figures on the different kinds of people who died in Eastern 
Europe as a result of persecution. What is of particular interest is 
that these pages do not make or invite any explicit comparison between 
the Nazis and white slaveowners. The teaching apparatus for each play 
simply informs students that it reflects the theme of ``The Just and 
the Unjust,'' making it reasonable for students to infer that the 
counterpart to the unjust in Anne Frank's story are the white racists 
who condoned or profited from slavery. The issue is not that they were 
unjust; the issue is that they were not Nazi-like in their behavior.
---------------------------------------------------------------------------
    \1\ The publishers cited in this section were the major publishers 
of school anthologies during the 1990s and their anthologies are likely 
still in use in the schools because of the costs in replacing them. 
Moreover, even if State law mandates new textbook adoptions every five 
years, there are rarely drastic changes in content from one edition to 
another (every five years or so) because of the cost of changing the 
contents of an entire anthology and because teachers have favorite 
selections they want to continue teaching. However, there is no way to 
determine exactly what students read in these anthologies because 
teachers exercise their own idiosyncratic choice in what they assign 
students in their own classrooms. Nor is it possible to obtain exact 
sales figures from the publishers (or other sources), in a highly 
competitive and fragile market, to determine how many of their 
anthologies were sold to the schools in any one period of time.
---------------------------------------------------------------------------
    As another example, the context for Anne Frank's story in McDougal, 
Littell's 1994 grade 8 anthology also uses a story about black 
Americans to link Nazi Germany to America. In a unit thematically 
titled ``The Will to Survive,'' the play is offered by itself under the 
title ``The Invincible Spirit'' but is then followed by a group of 
short pieces ranging widely in mood and topic under the title ``Caught 
in Circumstances''. The first work in the group is a fictional story by 
Paulette Childress White about the indignities suffered by a black 
family that is forced to go on welfare because of the father's loss of 
a job; the story is narrated by the 12-year old daughter as she 
accompanies her mother to the welfare office. It is immediately 
followed by Langston Hughes's poem, ``The Dream Keeper,'' a poem that 
suggests how harsh the real world is for anyone with dreams. It is 
unlikely that students will miss the implied connections to Anne 
Frank's story.
    It should be noted that the popularity of the play ``The Diary of 
Anne Frank'' in the secondary school curriculum long antedates the 
current moralism on intolerance. English teachers began to introduce 
the play or the diary itself (and sometimes Elie Wiesel's semi-
autobiographical Night) to secondary students decades ago because these 
works are moving personal accounts of the Holocaust presented through 
the eyes of sensitive adolescents. One can find the play based on Anne 
Frank's diary or an excerpt from it in the six leading literature 
anthologies for grade 8 (including the two described above), in one 
literature anthology for grade 6, and in one instructional reader for 
grade 7 used in the 1990s. Night is also taught frequently in grades 9 
through 12, to judge by the presence of excerpts from it in two grade 
12 anthologies and by individual trade book sales. Both these works 
continue to deserve a place in school literature programs for literary 
and social reasons even though students may no longer be asked to read 
them to gain an appreciation of the strength of the human spirit in the 
face of evil.
    Four grade 8 anthologies link the Holocaust to racism in America 
through an implicit comparison of Nazi concentration camps to the 
internment of the Japanese Americans on the West Coast during World War 
II. Scott Foresman's l991 anthology does so in an ingenious manner. 
Although it groups ``The Diary of Anne Frank'' with an excerpt from a 
play about an elderly woman in France during the occupation who 
pretends to be a collaborator of the Nazis in order to help their 
intended victims (a laudable context because it helps to bring out the 
character of the Dutch family who hid the Frank family), the last 
selection in the unit directly preceding the play about Anne Frank is 
Yoshiko Uchida's short story ``The Bracelet.'' This story is about a 
young Japanese American girl's loss of a bracelet given by a school 
friend before her family is taken from their home by bayonet-armed 
soldiers to an internment camp with barbed wire strung around its 
grounds. The textual contiguity of ``The Bracelet'' and ``The Diary of 
Anne Frank'' clearly suggests that the editors of this anthology saw 
common elements and wanted to help students see them too. Further, this 
editorial point of view is consistent across the textbooks in this 
series. The grade 11 anthology in this series, which is devoted to 
American literature, places Elie Wiesel's Nobel Prize Acceptance Speech 
directly after selections by Lorraine Hansberry and Ralph Ellison, both 
understandably highlighting prejudice against blacks in this 
country.\2\
---------------------------------------------------------------------------
    \2\ Although Wiesel is now an American citizen, it is not clear why 
his Acceptance Speech--or any of his work--constitutes American 
literature. Selections from Night are contextualized appropriately from 
a thematic perspective in the two grade 12 anthologies that feature 
them. In one, the selection is placed under the thematic title of ``The 
Twentieth Century: Searching for Meaning'' and among a group of works 
by well-known European authors. In the other, the selection from Night 
appears with Wiesel's Nobel Prize Acceptance Speech in a section titled 
``Facing Death'' containing thematically related works from the 
Romantic and Victorian Periods, 1800-1900. The only problem with this 
placement is that all the works in this section are supposed to be from 
those periods.
---------------------------------------------------------------------------
    Contiguity of selections, however, is not necessary for a link to 
be made between the internment of the Japanese Americans and the 
Holocaust. All that is necessary is the presence of information about 
the internment camps somewhere in the anthology. Two anthologies find 
novel ways to bring in this information. In an earlier unit in the 
anthology, before ``The Diary of Anne Frank'' appears, McDougal, 
Littell's 1994 anthology offers a letter written by William Tsuchida to 
his brother and sister who were confined in an internment camp while he 
was serving in the U.S. Army during World War II. The letter says 
nothing about the internment camps, but the editors make use of the 
letter (which they put into the anthology even though it is not a 
literary selection) to give students information about the internment 
camps. Holt, Rinehart and Winston's 1993 anthology gives students the 
information in a different way. It presents a short story by Yoshiko 
Uchida as the introduction to its grade 8 anthology, and although the 
story is not about the internment experience but about a young Japanese 
woman on her way to America to marry a Japanese man who had already 
immigrated to America and made his fortune here, the biographical 
description at the end of the story notes that Uchida ``experienced 
firsthand the discrimination to which many Japanese Americans were 
subjected during World War II,'' adding that she spent ``a year with 
her family in a concentration camp for Japanese Americans in Topaz, 
Utah.'' In Holt, Rinehart and Winston's 1997 anthology, the Uchida 
story and biographical information no longer appear. But one follow-up 
activity (p. T 436) to ``The Diary of Anne Frank'' suggests discussing 
Martin Luther King and civil rights, Eleanor Roosevelt and women's 
rights, and Mohandas Gandhi and non-violent protest, while another 
follow-up activity (p. T 443) suggests comparing Night or Ruth Minsky 
Sender's The Cage with Farewell to Manzanar, a poorly written 
autobiographical piece of white-guilt literature about the experiences 
of a very young Japanese American girl in one of the internment camps. 
The editors figured out how to imply similarities by noting that ``all 
three are autobiographies by people who were imprisoned during World 
War II because of their religious or national background.''
    Prentice Hall's 1994 anthology lays the groundwork for the link in 
yet another way. It includes in a poetry unit directly following ``The 
Diary of Anne Frank'' a letter in the form of a poem, conveying what a 
young girl might have written to a friend in response to the executive 
order from the U.S. government requiring the Japanese on the West Coast 
to report to Relocation Centers for internment. \3\ Thus, four of the 
six grade 8 anthologies facilitate links between Nazi death camps and 
Japanese American relocation camps, albeit in very different ways. Yet, 
not one directly asks students to discuss the implied parallels.
---------------------------------------------------------------------------
    \3\ A connection with discrimination against blacks and women is 
facilitated by the following unit, which includes a journalist's 
account, based on interviews with survivors, of what happened to Anne 
Frank, her family, and Dutch friends after they are discovered by the 
Gestapo. This account is directly followed by an essay by Shirley 
Chisholm on the prejudice that blacks and women have to overcome in 
this country.
---------------------------------------------------------------------------
    Grade 8 teachers can easily imply the analogy, if they so choose, 
even when they happen to be using an anthology with a Holocaust 
selection that contains nothing on the internment of Japanese Americans 
during World War II. They may simply ask their students to read, in 
addition to ``The Diary of Anne Frank,'' Farewell to Manzanar. It is 
frequently recommended for grade 8 students. Indeed, in a sourcebook 
for teachers published by the California State Department of Education, 
a study question for Farewell to Manzanar suggests that students 
``compare Manzanar with the German concentration camp in I Am 
Rosemarie'' (a story about a young Dutch Jewish girl who is deported 
with her whole family to a Nazi concentration camp).\4\ The sourcebook 
does not suggest that they discuss differences as well. Students can 
thus be helped to make an association between Nazi extermination camps 
and the relocation camps for Japanese Americans regardless of what is 
in the literature anthology used by the class. Moreover, whether or not 
there is class discussion about the differences in the real-world 
outcomes for the Japanese Americans and the European Jews, students 
will likely see the internment of the Japanese Americans solely as an 
expression of anti-Japanese prejudice because complete information is 
rarely given in the text or the teaching apparatus on how the policy 
was formulated, by whom, and the limitations of its scope. Indeed, the 
lack of detailed information on this historical episode in the teaching 
apparatus, given that discussions based on accurate details are 
unlikely in an English class, reinforces the impression that the 
editors may not have been averse to creating an unambiguously negative 
image of Americans during World War II.
---------------------------------------------------------------------------
    \4\ Page 114 in ``Literature for all Students: A Sourcebook for 
Teachers,'' a product of a California Literature Institute, published 
by the California State Department of Education in 1985.
---------------------------------------------------------------------------
    Grade 8 teachers can also easily imply the analogy or make it 
explicit, if they so choose, when they happen to be using an anthology 
with a selection on the internment of Japanese Americans but without a 
selection on the Holocaust. Many grade 8 teachers assign ``The Diary of 
Anne Frank'' as an independent literary text to supplement the 
literature anthology they use. That might well be the case for grade 8 
teachers using Macmillan McGraw Hill's 1997 grade 8 anthology Spotlight 
on Literature; it contains several selections on the Japanese 
internment.
    Is it possible that the appearance of these particular pieces by 
Japanese American authors in these four grade 8 anthologies is a result 
of happenstance? It seems unlikely for several reasons. No selections 
on the internment of Japanese Americans during World War II appear in 
anthologies for grades 7 or 9. With only one exception, no literature 
on the Holocaust appears at these grade levels. Nor do stories or 
essays on the internment of the Japanese Americans appear in 
anthologies for grade 11, which tend to focus almost exclusively on 
American literature. An anthology on American literature is not an 
appropriate place for Holocaust literature, but it would be for works 
by Japanese American authors on the internment experience if they are 
works of literary merit appropriate for high school students. Nor is it 
the case that the only publishable works by Japanese American writers 
are those that focus on the internment experience. To the contrary, 
other pieces by Japanese American authors, including many by Uchida 
herself, appear at other grade levels.
    One may reasonably conclude that the editors of these four 
anthologies wanted to make it possible for students to see a connection 
between the Nazi extermination camps and the relocation camps for 
Japanese Americans. Moreover, one may also conclude that the editors 
are aware that these two phenomena are not parallel expressions of 
racism despite some surface similarities, and that it would be 
unethical to imply that they were or to invite students to compare them 
without providing further information on the limits of our wartime 
policy and the reasoning of our president, the courts, and others in 
approving the policy. I draw this conclusion precisely because the 
teaching apparatus in the anthologies that contain information or 
selections on the internment of the Japanese Americans never suggests 
to teachers that they have their students compare the two phenomena. 
And it is an accepted practice for editors to ask students to compare 
two or more works in an anthology.
    Literature anthology editors who want Anne Frank's diary or the 
play based on it studied as a literary text and/or who want to reduce 
the possibility of false analogies use the literary context to direct 
the reader's attention to Anne Frank's character, to the theme of the 
work, and to the selection as an example of a particular literary genre 
or literary tradition. Macmillan offers the play in its 1991 grade 8 
anthology as an illustration of the genre of tragic drama, preceding it 
with a comedy by Edmund Rostand. This dramatic contrast focuses the 
reader's attention naturally on Anne Frank's personal qualities. 
EMCParadigm Publishers suggests this contrast in genres in a different 
way; in its 1997 grade 8 anthology, the play is paired with a prose 
adaptation of Shakespeare's ``A Midsummer Night's Dream.'' In McDougal, 
Littell's 1989 anthology and Holt, Rinehart and Winston's 1993 
anthology, Anne Frank's story appears in other contexts that help 
students see her character as the central meaning of the work. 
McDougal, Littell does so by using an excerpt from the diary as an 
example of autobiography and then grouping it with an essay by Helen 
Keller, an excerpt from Of Men and Mountains by William O. Douglas, and 
``The Rose-Beetle Man'' by Gerald Durrell. These are then followed by 
several biographical pieces, including one by Carl Sandburg about 
Lincoln and an excerpt from John Gunther's Death Be Not Proud, all of 
which provide a broad context highlighting individual faith, strength 
of will, and courage in achieving personal or social goals despite 
extraordinary physical or intellectual challenge if not the specter of 
death itself. In Holt, Rinehart and Winston, the play about Anne Frank 
is grouped with Carl Foreman's script for ``High Noon,'' a dramatic 
work that emphasizes individual courage and integrity in the context of 
a community that has failed to take a moral stance.
    What might anthology editors recommend as a possible moral lesson 
to be drawn from studying literature about the Holocaust, a lesson 
teachers might invite their students to discuss? Lucy Dawidowicz, a 
historian of the Holocaust, suggested in the last article she wrote 
before her death that ``the primary lesson of the Holocaust'' is the 
Sixth Commandment, ``Thou shalt not murder.'' \5\ She also believed 
that if the study of the Holocaust was to have application to this 
country, it should lead students to see the fundamental difference 
between a constitutional government ruled by law and authoritarian or 
totalitarian governments that legitimated persecution of a specific 
people and used terror to inculcate obedience or silence dissenters. 
How defenseless minorities are scapegoated in societies with problems 
their governments are unwilling or unable to address would be an 
appropriate question for a class to discuss after reading literature 
about the Holocaust. But I have yet to find such a question suggested 
for class discussion in response to reading the literature on the 
Holocaust. For meaningful cross-cultural comparisons of concentration 
camps, excerpts from A Day in the Life of Ivan Denisovitch or Gulag 
Archipelago would be most appropriate and useful. Yet no excerpts from 
these works appear in the anthologies that include Holocaust 
literature, at least in those published in the 1990s.
---------------------------------------------------------------------------
    \5\ Lucy Dawidowicz, ``How They Teach the Holocaust.'' Commentary, 
December, 1990, p. 31.
---------------------------------------------------------------------------

Moral Equivalence in the Social Studies Class

    Perhaps the strongest source of influence on the school curriculum 
suggesting a moral equivalence between Nazi Germany and America is 
Facing History and Ourselves (FHAO), an organization that provides 
materials and services to over 16,000 teachers ostensibly to help them 
address ``racism, antisemitism, and violence.'' \6\ Its web site 
conveys the scope of its activities, here and abroad. Although other 
Holocaust curricula are taught in some schools across the country, FHAO 
is by far the most popular source of training and materials on the 
Holocaust, and its prominence has increased since Steven Spielberg 
decided to give it income from showings of ``Schindler's List.'' 
According to FHAO's web site, it now reaches over 1.5 million 
adolescents through its teacher network, and over 4,500 schools through 
regional offices in six major cities in the U.S., in addition to an 
office in Europe. FHAO describes itself as having an 
``interdisciplinary approach to citizenship education'' and is 
supported by grants from many sources, including the Goldman Sachs 
Foundation and the Germenhausen Foundation, with the grant from the 
latter targeted to ``expand outreach in Europe.'' The FHAO curriculum 
is flexible and can be taught over a long or a short period of time and 
at any grade level, although it most frequently takes about six to 
eight weeks to cover and is usually taught in grade 8 or 9. FHAO urges 
as much interdisciplinary cooperation between English and social 
studies classes as possible to help students ``think deeply about 
issues of racism, prejudice and discrimination, and to be active 
participants in promoting social justice.''
---------------------------------------------------------------------------
    \6\ Facing History and Ourselves Annual Report 2001-2002.
---------------------------------------------------------------------------
    FHAO's goals and how it seeks to achieve them were spelled out in 
its first major resource book, titled Holocaust and Human Behavior, 
published in 1982.\7\ This teacher manual was superseded in 1994 by a 
substantially revised resource book with the same title but now framed 
by the assumption of equivalence between Nazis and Americans and still 
in use.\8\ In 2002, FHAO published an additional resource book titled 
Race and Membership in American History: The Eugenics Movement and has 
just begun to introduce this book at institutes and workshops, and to 
develop an online course based on the book. The contents of these three 
resource books reveal how this organization has evolved from laudable 
beginnings in the 1970s by a grade 8 social studies teacher in the 
Brookline Public Schools interested in moral education and in teaching 
about the Holocaust to become a major vehicle for smearing American 
history, American citizenship, and American science with the foul brush 
of Nazism. The contents also provide the basis for a case study in how 
the social activism underlying many of the K-12 curricular trends of 
the 1970s and early 1980s metasticized into the manipulative and 
malignant anti-American moralism of the 1990s and 2000s.
---------------------------------------------------------------------------
    \7\ Margot Stern Strom and William S. Parsons, Facing History and 
Ourselves: Holocaust and Human Behavior. Watertown, MA: Intentional 
Educations, 1982.
    \8\ Facing History and Ourselves: Holocaust and Human Behavior. 
Brookline, MA: Facing History and Ourselves National Foundation, Inc., 
1944.
---------------------------------------------------------------------------
    The 1982 resource book seeks ``to promote awareness of the history 
of the Holocaust and the genocide of the Armenian people, an 
appreciation for justice, a concern for interpersonal understanding, 
and a memory for the victims of those events'' (p. 13). It also seeks 
to make comparisons and parallels to past and contemporary issues, 
events, and choices when appropriate, with a major goal of helping 
today's students prevent an event such as the Holocaust from happening 
again. About 63 pages of the manual's 400 or so pages address the 
Armenian genocide.\9\ The rest deal with the Holocaust, originally the 
sole focus intended by FHAO.\10\ Because of FHAO's stated belief at the 
time that a study of the Holocaust must have a ``positive'' ending \11\ 
and that American social studies teachers would not find it useful 
unless it was connected to the need for active citizen participation in 
a democracy, the final chapter addresses political issues in 
contemporary American life.\12\
---------------------------------------------------------------------------
    \9\ The chapter on the Armenian genocide seems incoherently 
inserted into the FHAO curriculum because the manual fails to call 
attention to any of the extraordinary parallels in the histories of the 
Armenians and the Jews, both ancient peoples of the Middle East. The 
chapter on the Armenian genocide provides an informative chart on the 
origins and history of the Armenian people, a map of historic Armenia, 
information on how Armenians had seen autonomy if not independence 
during the nineteenth century as the best way for a religious and 
ethnic minority to be protected, and a brief note on how the Armenian 
response to their genocide by the Turks led to the establishment of an 
Armenian Republic (later taken over by the Soviet Union) and the desire 
of many Armenians to regain control of their lost homeland in Turkish 
Armenia.
    \10\ Although its scholarship on the details of the Holocaust is 
scrupulous, the historical framework FHAO offers for the study of the 
Holocaust in the 1982 (and 1994) teacher manual is crucially flawed. If 
the ``final solution'' was about anything, it was about anti-Semitism. 
Yet, only a 22 pages-long chapter provides reading selections on the 
history of the European Jews and on the causes of anti-Semitism. And it 
contains nothing on the origins of the Jewish people, their early 
history, and why so many were in Europe altogether, Western or Eastern. 
Nor are there later readings on the response to the Holocaust by what 
was left of world Jewry. Because the Holocaust is so inadequately 
contextualized in this manual, students are unlikely to learn (in this 
curriculum) how much the Holocaust influenced the determination of Jews 
after the war to re-establish a country of their own so that they could 
become a nation like other nations, what their ancient homeland had 
been, and why they chose to return there. Nor are they apt to examine 
the manifestations and sources of contemporary anti-Semitism. The 1982 
manual almost completely ignores contemporary anti-Semitism--its 
continuing virulence in some of its traditional settings and its new 
sources elsewhere. Only five pages in this manual offer short readings 
dealing in any way with contemporary anti-Semitism, and these pages 
appear in the same 22 pages long chapter on the history of the European 
Jews--before the manual discusses German history, the rise of Hitler, 
and the Holocaust itself.
    \11\ Telephone conversations with Margot Strom and her associate, 
Steven Cohen, April 1989.
    \12\ In its final chapter, the manual briefly suggests some 
parallels with My Lai or the experiences of the Japanese Americans and 
the Indians after carefully noting that while ``no single historical 
event duplicates the Nazi deed, many share different aspects of the 
process that led to the death camps'' (p. 219). Also played up briefly 
is the erroneous notion that Auschwitz is linked to ``a cultural 
tradition of slavery'' that is part of Western history only. Most of 
the material in the final chapter centers on three topics, which are 
the ones recommended for class discussion to encourage civic 
participation and moral decision-making: (1) the ruling by the State of 
Arkansas requiring equal treatment in the teaching of evolutionary 
theory and creationism in the schools, and the lawsuit by the American 
Civil Liberties Union charging that the ruling violated academic 
freedom, (2) the role of the Moral Majority with respect to freedom of 
speech, and (3) the use of nuclear weapons by the United States in 
World War II, the continuing development of nuclear weapons, and the 
potential for a nuclear holocaust without arms control. These topics 
were popular with social activists at that time, the last one in 
particular.
---------------------------------------------------------------------------
    FHAO's goal of providing ``positive'' civic lessons for Americans 
is the source of the central problem with this curriculum. To enable 
teachers to use the study of the Holocaust for stressing the importance 
of citizen participation in America and for urging students to speak up 
and act in the face of perceived social wrongs, FHAO chose to rely on a 
psychological explanation for the behavior of the Nazis and of the 
Germans who supported or acquiesced in the Nazis' rise to power. In 
doing so, FHAO could portray the Nazis as exhibiting ``human behavior'' 
(hence the title of the resource book) in whatever they did. Such a 
conceptual framework seriously downplays the deep-rooted cultural and 
political forces that shape human behavior and differ considerably 
across cultures. A neglect of cultural and political forces well serves 
the purposes of the 1994 resource book. Although it contains little 
that explicitly connects anti-Semitism and the psychology of the Nazis 
and their supporters to America's social problems and the psychology of 
Americans, its conceptual framework has allowed small acorns to grow 
into mighty oaks.
    The purpose for studying the Holocaust is now to confront ``the 
history of racism and antisemitism at home and abroad'' (p. xiii). The 
preface begins with a reference to an article by Marion Wright Edelman 
of the Children's Defense Fund about the struggle today ``for the 
nation's conscience and future'' as ``the American Dream is 
collapsing,'' pitting American against American ``as economic 
uncertainty and downturn increase our fears, our business failures, our 
poverty rates, our racial divisions, and the dangers of political 
demagoguery'' (p. xiii). In the twelve years since the appearance of 
the first resource book, America has become in FHAO's eyes a nation 
consumed by hatred and violence. FHAO now sees our students as having 
been carefully taught to hate, and attributes ``much of the violence 
that threatens our society'' to ``its roots in bigotry and hate'' (p. 
xiii). This demonic view of American schools and American society is 
unrelieved throughout the book. If this curriculum had been designed 
for German educators, one might understand the melodramatic injunction 
in the preface that ``we do not want yet another generation of young 
people influenced by propaganda to march blindly in someone else's 
parade'' (p. xviii). Since we have not had such a generation in 
America, it is clear that America and Nazi Germany have merged as one 
country in FHAO's eyes.
    The 1994 resource book leaves no stone unturned in its efforts to 
make sure that students see the task of confronting white racism in 
America as the chief reason for studying the Holocaust. Its first and 
last two chapters concentrate on racism and violence in American 
history and contemporary life. Such a framework enables FHAO to 
associate even Thomas Jefferson and Abraham Lincoln with the history of 
Nazism. The text points out that Lincoln regarded Africans as inferior 
in his early years, and notes Jefferson's status as a slaveholder and 
his words about Africans as a threat to ``white racial purity'' (pp. 
76-77). Students are later asked to compare African Americans to 
European Jews (pp. 94-96). Questions in five other chapters also invite 
comparisons between events in American history (almost always with 
reference to black Americans) and the history of racism, anti-Semitism 
in Europe, and the rise of Nazi Germany. FHAO's 1994 resource book 
moves back and forth with conceptual ease from Nazis to Americans and 
consistently ignores the possibility that what happened in Germany 
might best (or at least also) be understood as a political and cultural 
phenomenon. It makes explicit and frequent links not only between 20th 
century America and 20th century Germany but also between 19th century 
America and 19th century Germany.
    For example, students are asked to compare the patriotism and 
military service of black Americans in World War I with the patriotism 
and military service of German Jews in Germany in World War I (p. 113). 
Activities of the Ku Klux Klan in America after World War I are 
compared to the rise of the Nazis in Europe after World War I, in 
addition to other parallels between Weimar Germany and post World War I 
America (pp. 125, 132, and 133); indeed, the Klan is elevated to a more 
prominent place in American history than the Democratic or Republican 
Party. The text also compares American schools and school texts in the 
1930s and 1940s to German schools during the Nazi era (pp. 243-244) and 
asks students to compare Kristallnacht to an incident in Boston in 
which a rock was thrown through the window of a Vietnamese family (p. 
267). Students are asked to discuss when the word holocaust is a useful 
metaphor for other events after the text points out that ``African 
Americans have labeled their experiences with slavery and 
dehumanization a `holocaust' '' (p. 310). The book even closes with a 
query about whether the violence that it suggests is all about us in 
American life might lead to another Holocaust, clearly implying that 
the victims of this Holocaust will be African Americans (p. 564).\13\
---------------------------------------------------------------------------
    \13\ FHAO has emphasized racism and violence in American life in 
its workshops and annual conferences on human rights over the past 
decade. For example, of the many workshops offered for the first annual 
FHAO Learn-A-Thon that took place in Brookline in May 1994, less than 
half dealt with the Holocaust itself. Almost all the other workshops 
dealt with social issues in America. These included ``Science and 
Society: Retrieving the Forgotten History of the Eugenics Movement in 
the United States,'' ``Lost Hopes, Shattered Dreams: The Streets of 
Boston Today,'' ``Ordinary Heroes: Winners of the Reebok Human Rights 
Award,'' which featured a talk by a woman who is helping battered 
women, ``Joining the Dialogue: Communities of Color and the Information 
Super Highway,'' ``Teaching Children in Violent Times,'' ``Respecting 
Differences: Towards a New Legal Definition of Family,'' and ``Names Do 
Hurt Me: The Stereotyping of `Non-Aryans' in Nazi Germany and of Asian 
Americans in the US Today.'' The range of social issues with which the 
study of the Holocaust has become associated is almost stupefying to 
consider.
---------------------------------------------------------------------------
    In the March 1995 issue of The New Republic, Deborah Lipstadt 
expressed her unhappiness with the context into which FHAO placed the 
Holocaust in this resource book, pointing out that ``no teacher using 
this material can help but draw the historically fallacious parallel 
between Weimar Germany and contemporary America'' (p. 27). Not only did 
she criticize FHAO's efforts to insinuate this analogy, she also saw 
little to be learned from FHAO's efforts to link the Holocaust to 
Hiroshima, Nagasaki, the My Lai Massacres, or the mass murders in 
Cambodia, Laos, Tibet, and Rwanda as other examples of ``mass 
destruction.'' It is worth noting that FHAO avoids references to the 
Soviet gulags, the inspiration they provided for the Nazi death camps, 
or the mass murders committed by communist regimes among its examples 
of mass destruction. Nevertheless, the 1994 resource book has very 
clear moral injunctions for Americans. Students must help make sure 
that white America ends what FHAO claims has been a denial of black 
American history; it must also apologize and make amends (pp. 505-513). 
And to reinforce the notion of how hurt blacks have been, the text 
offers in what may be its most incredible passage a sympathetic 
reference to Louis Farrakhan (and it is the only reference to him in 
this manual). He is deliberately singled out as one of those blacks who 
speaks ``directly to the pain and pride'' of all black people, with 
only a quick passing remark in the text that parts of Farrakhan's 
message ``stereotype and demean other groups'' (p. 507). Not even a 
clue that the very people he has stereotyped and demeaned are those 
against whom the Holocaust was directed. It is understandable why the 
1994 text would find it difficult to discuss black anti-Semitism since 
it uses the Holocaust to portray America's blacks as Europe's Jews. But 
the attempt to whitewash Farrakhan can be judged only as morally 
perverse.\14\
---------------------------------------------------------------------------
    \14\ Deborah Lipstadt's expression of outrage in her New Republic 
article over FHAO's rationalization of Farrakhan's behavior in its 1994 
resource book led to a flurry of activity by FHAO. There were about 
20,000 books in FHAO's warehouse containing the page on which it had 
appeared, I was told Several months after the article appeared, I 
bought another copy of the book and found the passage no longer there. 
However, FHAO had neglected to remove Farrakhan's name from the index. 
It is still there even though the page it refers to contains nothing on 
him.
---------------------------------------------------------------------------
    FHAO's latest resource book, Race and Membership in American 
History: The Eugenics Movement (RMAH), is 356 pages long and consists 
of 76 chapters or lessons called ``Readings.'' Its cover contains a 
montage of various faces, all unknown and unidentified except for that 
of Adolph Hitler. These chapters contain snippets of primary source 
materials (excerpts from college textbooks, books written by scholars, 
speeches, editorials, personal anecdotes, and magazine articles), 
strung together by explanatory narratives authored chiefly, it appears, 
by an associate program director for FHAO, a former high school social 
studies teacher in the Brookline public schools. Each chapter is 
followed by ``suggestions for independent research or group projects.'' 
According to the Foreword, RMAH was written to ask us ``to rethink what 
we know about our own past. While barely remembered today, the eugenics 
movement represents a moral fault line in our history. It was a 
movement that defined differences in terms of racially superior and 
inferior human traits. Because these ideas were promoted in the name of 
science and education, they had a dramatic impact on public policies 
and the lives of ordinary people at the time and, in turn, created 
legacies that are still with us today. The eugenics movement is not a 
historical footnote. It is a fundamental chapter in our history that 
ought to be examined in our classrooms.''
    The Overview explains the connection to the Holocaust. RMAH 
``focuses on a time in the early 1900s when many people believed that 
some `races,' classes, and individuals were superior to others,'' using 
a ``new branch of scientific inquiry known as eugenics to justify their 
prejudices . . .'', and while ``in the United States, the consequences 
were less extreme,'' in Nazi Germany, ``eugenics was used to shape and 
ultimately justify policies of mass murder.'' The brochure advertising 
RMAH also makes the connection clear, stating that ``racism and 
eugenics had worldwide appeal. In Nazi Germany, they were used to 
justify the Holocaust. In the United States they limited opportunities 
for millions of Americans.'' To facilitate teachers' access to the 
readings that explain the ``connections between the American eugenics 
movement and its counterpart in Nazi German,'' the Overview notes that, 
in a departure from previous practices (materials from its resource 
books have not appeared on its web site before), FHAO's web site now 
provides an instructional module with the readings that trace these 
connections.
    What is the exact connection FHAO wants students to see? A causal 
one--that Americans and American science, however indirectly, were 
responsible for Nazi Germany's extermination policies and the 
Holocaust. There is no other conclusion American students can draw. 
Although RMAH makes clear that few American scientists subscribed to 
the eugenics movement by World War II, the chapters on ``The Nazi 
Connection'' artfully quote from various sources to indicate that 
Hitler drew upon the ideas of many respectable German scientists for 
his ideas on racial ``eugenics'' and that these German scientists not 
only supported Hitler and his use of their ideas but also acknowledged 
the leadership of American scientists, educators, and policy makers in 
the eugenics movement. Karl Brandt, the head of the Nazi program for 
the killing of the mentally disabled, is also quoted as telling the 
court, in his defense after World War II against the accusation of 
participating in government-sponsored massacres, that the Nazi program 
for the sterilization and elimination of ``life not worthy of living'' 
was based on ideas and experiences in the United States (p. 282).
    FHAO also implies that the eugenics movement was the American 
equivalent to Soviet Lysenkoism in its effect on scientific 
development, although Lysenkoism is never mentioned in RMAH. On p. 274, 
RMAH quotes ``scientist Jonathan Marks'' saying in a 1995 book that if 
biologists ``did in fact widely see the abuse to which genetic 
knowledge was being put, but refused to criticize [the eugenics 
movement] out of self-interest, they paid dearly for it. As historians 
of genetics have noted, the eugenics movement ultimately cast human 
genetics in such a disreputable light that its legitimate development 
was retarded for decades.'' Using this book as their informational 
resource, social studies teachers so-inclined would be able to suggest 
to their students that while Stalin might have retarded Soviet biology 
for decades by his support of Lysenko's ideas, American biology was 
retarded during these same decades by something even worse--racism and 
the goal of eliminating people, or the reproduction of people, with 
undesirable genetic traits. Any doubt about RMAH's ideological 
allegiance is dispelled by its praise of Henry Wallace as ``one of the 
few American politicians to challenge both Nazi racism and American 
eugenics'' (p. 283).
    Despite the massive amount of citations and excerpts to prop up the 
book's implicit thesis and explanatory narratives, it is telling that 
FHAO fails to acknowledge even one biologist as a reviewer or to give a 
biologist's assessment of the influence of the eugenics movement on 
American science. Jonathan Marks is not a geneticist; he is an 
anthropologist by training and an associate professor in the Department 
of Sociology and Anthropology at the University of North Carolina-
Charlotte. And, eminent scientists who have written about the history 
of evolutionary biology imply a very different judgment about the 
influence of eugenics on the history of American biology. For example, 
eugenics is mentioned in one short, four-sentence paragraph in 
Evolution and the Diversity of Life, a 722-page collection of essays by 
Ernst Mayr on the history of important ideas and movements in 
evolutionary science. \15\ Moreover, from the early 1920s to the late 
1940s, American biology moved from a secondary position in world 
biology to the very forefront, as indicated not only by the size of the 
enterprise but by the number of Nobel prizes won by Americans and the 
number of leaders of biological and medical science here who had 
escaped from Nazism. FHAO itself provides no evidence that the 
legitimate development of American biology was ``retarded for decades'' 
by eugenics. It doesn't because it can't. All it can do is quote the 
judgment of an anthropologist.
---------------------------------------------------------------------------
    \15\ Ernst Mayr, Evolution and Diversity in Life (Cambridge: 
Harvard University Press, 1976, paperback reprint 1997) p. 318.
---------------------------------------------------------------------------
    A curious reader might also wonder why no biologists are quoted on 
their assessment of the influence of the eugenics movement on German 
science. Perhaps because they would support the judgment of Paul R. 
Gross, who writes:
    Eugenics, positive and negative, has had no significant influence 
on the course of biological or biomedical science. Some of its sillier 
notions may have been used here and elsewhere, in the past, by racists 
as justification for their opinions; but there has been no visible 
effect on basic life science or the practice of medicine. The vast 
majority of biologists today, if asked to define `eugenics,' would have 
trouble coming up with anything like a correct statement. Many would 
not have heard of it and most would be entirely unaware of its history. 
It has been forgotten, except by a few ideologues of the far left and 
right for whom it continues to be a cause celebre. There was some 
currency of eugenic ideas among social reformers and other 
intelligentsia--mostly non-biologists--in the period roughly from 1910 
to 1935, and among the subset of racists and anti-Semites within that 
group. This made no visible difference to the character and progress of 
life science, in the United States or in Europe. To connect American 
eugenics with the Nazi Holocaust is a monstrous exercise in special 
pleading.\16\
---------------------------------------------------------------------------
    \16\ Personal communication from Paul R. Gross, University 
Professor of Life Science, emeritus, University of Virginia, former 
President and Director of the Marine Biological Laboratory, Woods Hole, 
Massachusetts. August 14, 2003.
---------------------------------------------------------------------------
    The history of the eugenics movement should be better known. The 
American eugenics movement at the height of its influence was 
responsible for the forcible sterilization of thousands of Americans 
and did contribute ideologically and sometimes financially to the rise 
of Nazism in Germany. \17\ Nevertheless, one must ask why an 
organization devoted to a study of the Holocaust should expend its 
energy compiling information on the history and influence of the 
eugenics movement in America as if it, rather than the centuries of 
negative cultural stereotypes and religious hatred of Jews in Christian 
Europe, were instrumental in the development of Hitler's Final 
Solution, a history FHAO has studiously ignored since its inception. In 
her critique of FHAO and other Holocaust curricula used in this 
country, Lucy Dawidowicz commented that the most serious failure she 
found was the omission of the history of anti-Semitism as a matter of 
public policy over the centuries and its roots in Christian doctrine. 
High school social studies teachers are likely to accept FHAO's 
implicit thesis and teach it to their students if FHAO's resource books 
are their only source of information on a topic that high school 
science teachers are unlikely to address in their classes (unless high 
school science textbooks are influenced by FHAO's ideological 
sympathizers).
---------------------------------------------------------------------------
    \17\ That the American eugenics movement was responsible for Nazi 
racial policies and the Holocaust is the explicit thesis of Edwin 
Black's latest book, War Against the Weak: Eugenics and America's 
Campaign to Create a Master Race (Four Walls Eight Windows, 2003).
---------------------------------------------------------------------------
    It is not surprising that, according to FHAO's Annual Report for 
2001-2002, FHAO conducted an intense institute in Stockholm this past 
year at the invitation of Sweden's Department of Education, with the 
expectation that the contents of the institute would be taught to other 
Swedish teachers. Although there seems to be no evidence that the 
Swedish government today is concerned about anti-Semitism in Sweden or 
in the rest of Europe, it has evinced a consistent interest in racism 
in America. It is also not surprising that FHAO has begun to provide 
teacher training seminars in Berlin for German teachers in the past 
several years. What better way to relieve lingering German guilt over 
the Holocaust than by helping young Germans see an American-dominated 
eugenics movement at the turn of the 20th century as ultimately 
responsible for Nazi racial policies and the Holocaust. Interestingly, 
among the scholars FHAO features at these Berlin seminars is Ian 
Hancock, a professor of English and linguistics and an authority on the 
Roma who has claimed that the lack of scholarship on Gypsy victims of 
the Holocaust is ``due, in part, to efforts by some scholars to 
maintain the uniqueness of what happened to the Jews.'' \18\ By using a 
scholar who seeks to justify the focus on the all-encompassing umbrella 
of racism by implying self-interest on the part of those scholars 
trying not to lose the focus on anti-Semitism (or, more accurately, to 
regain it), FHAO makes its own ``educational'' goals even clearer.
---------------------------------------------------------------------------
    \18\ In an essay in Alan Rosenbaum ed., Is the Holocaust unique? 
Perspectives on Comparative Genocide (Boulder,CO: Westview Press, 
1996), as described by Christopher Shea in an article ``Debating the 
Uniqueness of the Holocaust,'' The Chronicle of Higher Education, May 
31, 1996: A7-8.
---------------------------------------------------------------------------

Effect of the FHAO Curriculum on Teachers

    Although the 1994 FHAO resource book is framed by the assumption of 
moral equivalence between Nazi Germany and contemporary America, it 
never explicitly states that the two are equivalent. One can only 
speculate to what extent impressionable students who study its 
curriculum and read the Diary of Anne Frank will transfer their 
feelings about the Nazis to our own society. However, I have been able 
to collect some evidence on how the thrust of FHAO's evolving 
curriculum has affected teachers themselves, through the influence of 
its own workshops alone or with the help of graduate course work in a 
school of education. One example is a syllabus created in 1994 for a 
new course for students in grades 10, 11, and 12 in an upper middle 
class suburban high school in a Western State. Designed by two new 
teachers overtly seeking to address intolerance in this country, this 
syllabus just about takes for granted a moral equivalence between Nazi 
Germany and contemporary America. I received a copy of this syllabus 
from one of the two teachers as part of the application material for 
admission to a 1994 summer institute on civic education that I directed 
at that time at the Harvard Graduate School of Education. A recent 
graduate of a masters program at the Harvard Graduate School of 
Education, this teacher must have been proud of this syllabus or she 
would never have sent it with the application.
    According to the course description, it emerged from a school 
district's decision to expand its multicultural education program for 
the 1993-1994 school year. It was also developed to ``confront the 
growing issues associated with diversity at the high school.'' It 
claims that the issues of ``hatred, prejudice, racism, and 
indifference'' are the social issues that students at this high school 
confront daily, a claim that is difficult to believe for an upper 
middle class high school with an extremely high achieving student body. 
Indeed, the school district's scholastic scores rate second in the 
State, according to information I received from the Chamber of 
Commerce. Nevertheless, the course was approved by the principal, the 
superintendent of schools, and the school committee and started being 
taught in the 1994-1995 school year.
    The syllabus for ``Culture, Power, and Society'' explicitly 
connects the psychology of the Nazis and pre-World War II German 
culture with American cultural values and attitudes. Indeed, it 
suggests that the psychology of the Nazis and their supporters is an 
inherited cultural characteristic of most of the American population. 
The course outline makes its thrust crystal clear; the first unit deals 
with ``socialization and the ethos of the American psyche (aka Why we 
are the way we are)'' and examines the ``self and the individual in 
American society.'' Unit Two, which is on racism and anti-Semitism, 
explains that it ``will explore the roots of bias in our society'' 
(emphasis mine). It goes on to state that after examining where and how 
racist attitudes are formed (for example, through stereotypes, 
segregation, and isolation), students will culminate the unit with the 
reading of Night and an extensive look at the Holocaust. In the fourth 
of the five units in the syllabus, students study homophobia in the 
United States. One does not doubt that they will link Nazi persecution 
of homosexuals to the ``injustice suffered by homosexual individuals'' 
in America.
    In only one way is it understandable why these teachers have found 
the study of the Holocaust so useful for addressing prejudice and 
bigotry in this country. It provides them with the most horrendous 
image possible of a prejudiced person, an image that can be connected 
under the enormous umbrella of the concept of intolerance to the image 
of the white racist in America. With the abolition of slavery and the 
disappearance of lynching bees, prejudiced behavior in this country is 
generally invisible. Violence may be visible, but bigotry is not. What 
could better symbolize prejudice or intolerance and make a more 
powerful impression on young minds than images of the Nazis, the death 
camps, and the gas chambers? The course is not just a waste of academic 
time; it has the potential for much harm. It explicitly assumes that 
the ``prejudiced personality'' discussed in the required textbook The 
Social Animal by Elliot Aronson can be generalized to all Americans and 
then harnesses to this false generalization the power of a normal 
adolescent's emotional response to the Holocaust. Sustained by such a 
negative force, this generalization, however specious, has the 
potential for cultivating in young students a negative attitude towards 
their society, its political institutions and principles.
    Other examples of the effects of FHAO's workshops on teachers 
appeared in other application material to me. One grade 8 teacher 
proudly explained how, after taking a number of Facing History 
workshops, she had restructured her teaching of To Kill A Mockingbird 
to ``help prepare students for the Facing History unit in social 
studies.'' Her students ``are now being asked to look for parallels 
between Nazi Germany and the U.S., looking at U.S. slavery and 
subsequent racism as our holocaust. . . . I will read them excerpts 
from Jonathan Kozol's Amazing Grace to help them begin to see the 
ghettos that exist today. That's what I might like to focus on at the 
institute: the connection between contemporary ghettos of poor blacks 
in American cities with the ghettos and extermination of Jews and 
others in the Holocaust.''
    It should be noted that it is not easy for outsiders to find out 
what takes place in Facing History workshops. Only teachers from the 
schools that have arranged (and paid) for the workshop can attend, and 
the web site that enables these teachers to exchange ideas about 
classroom practices and resources is password-protected.

Moral Equivalence in the Anne Frank Journal

    The moral equivalence of America and Nazi Germany has been promoted 
in the teaching materials accompanying yet another effort to stimulate 
the reading of Anne Frank's diary in the schools and to educate 
students about the Holocaust. According to a 1991 brochure, the Anne 
Frank Journal was used as part of an educational program around the 
exhibition ``Anne Frank in the World 1929-1945,'' produced by the Anne 
Frank Centre in Amsterdam and distributed in America through the Anne 
Frank Center in New York City.\19\ Adapted from educational material 
for secondary schools in Holland, the Journal served as preparatory 
material for a visit to the exhibition or for follow-up. It was also 
used to accompany the reading of the play based on Anne Frank's diary, 
the diary itself, or other reading materials on the Holocaust. Bearing 
a strong resemblance in vocabulary and ideological thrust to the 1994 
FHAO manual, the 1993 edition of the Journal was based on the 
assumption that ``the study of history is most meaningful when it has 
significance for present day society.'' It stressed ``the need for 
every individual to make a choice . . . when racial violence . . . is 
common.'' It aimed to ``encourage young people to examine their own 
experience with racism and discrimination and to make them consider 
their own responsibility in racist events they encounter.'' As does 
FHAO, it subsumed anti-Semitism under racism so that it could deal with 
racism against blacks in this country. Its brochure contained a few 
photographs showing acts of anti-Semitic vandalism in Great Britain and 
Holland, but its chief concern was with the racism of ``fascists'' and 
neo-Nazis towards ``people of color'' in America and Western Europe. 
Despite the fact that the neo-Nazi movement in America was by the 
Journal's own admission not a large one, students were nevertheless 
asked to ``collect newspaper clippings about neo-nazi activities and 
anti-fascist actions'' and to discuss the ``similarities and 
differences between Berlin 1934, Paris 1986, and Neo-nazism in the 
USA.''
---------------------------------------------------------------------------
    \19\ According to The Anne Frank Center, its goals are to: 
Effectively introduce young people to Anne Frank, the Frank family's 
personal story, and the history of the Holocaust; Help young people and 
communities explore the difficult issues of discrimination, 
intolerance, and bias-related violence in a positive and constructive 
way; Engage young people to examine and challenge discrimination, 
intolerance, and bias-related violence; Carry the Center's anti-bias 
message to isolated areas and under-served communities across the 
nation, where people seldom have opportunities to discuss the problems 
of racism and discrimination, and to effect community-initiated action; 
Illustrate the importance of personal responsibility and tolerance by 
honoring those individuals who actively confront prejudice and bias-
related violence.
---------------------------------------------------------------------------
    The Journal's ideological agenda was clearest in a section called 
``A Message of Hate.'' It asked students: ``How is the `White 
Supremacy' movement in the U.S. different from the Nazis and neo-Nazis? 
How is it the same? . . .Discuss why this movement is particularly 
American. Discuss the effects of a history of slavery in the United 
States on today's version of white supremacy?'' And, similar to the 
anti-white hate-mongering apparent in the 1994 FHAO resource book, the 
Journal concluded its list of suggested questions for students with: 
``Could today's racism lead to something like the Holocaust?'' The 
question clearly does not have the Jews in mind as the victims of this 
Holocaust.
    The Journal was published for a number of years, although it is no 
longer listed on the web site for the Anne Frank Center.

The Call for More Literature on Intolerance in the English Class

    Pre-college students also read a great deal about the Holocaust in 
both their English and social studies classes because of national 
professional encouragement. In the spring of 1994 the Executive 
Committee of the National Council of Teachers of English (NCTE) 
approved a resolution urging teachers to let their students read and 
discuss literature on ``genocide and intolerance within an historically 
accurate framework with special emphasis on primary source material.'' 
Again, genocide has been conflated with the far broader concept of 
intolerance. Part of the rationale offered for the resolution was the 
need to counter the attempt to deny that the ``European Holocaust of 
the 1930s and 1940s'' ever happened, although it is not clear why NCTE 
thought this effort was needed in English classes in as much as Anne 
Frank's story is offered in all of the leading literature anthologies 
and is regularly one of the most popular titles in trade book sales. 
The NCTE also created a task force titled Committee on Teaching about 
Genocide and Intolerance to compile a list of resources to assist 
teachers in ``planning and producing instructional materials on the 
rhetoric and literature of genocide and intolerance.'' The rationale 
given in the announcement of the resolution stated that ``continuing 
acts of racial, ethnic, class, and religious hostility are occurring in 
increasing numbers in the United States and around the world'' . . . 
and that these ``destructive forces of intolerance and bigotry must be 
countered in every setting.'' Those who see themselves fighting the 
forces of Satan in this country could not have articulated their goals 
with more spirit. Indeed, the militancy in this statement evokes the 
image of the religious zealots orchestrating the Inquisition or the 
Salem witch hunts. It also suggests that an implementation of the 
resolution may well result in an even greater association than now 
exists between the Holocaust and any past or contemporary incident in 
this country that is construed as an act of prejudice.
    In 1999, NCTE published the work of this Committee titled Teaching 
for a Tolerant World: Essays and Resources, for grades 9-12. As one 
might expect, essays and resources addressing the Holocaust appear 
together with those addressing African Americans, Asian Americans, 
``Chicanos/Chicanas,'' Native Americans, and Gays and Lesbians. Only 
two essays in the entire collection suggest that intolerance or 
genocide might be attributable to other than Americans or Nazis. One 
deals with the effects of twentieth century genocide against women, 
describing the experiences of Armenian and Cambodian women among 
others. The other essay--on the Ukraine Famine--manages to indict 
Americans and other Westerners for not reporting the famine when it 
took place--a splendid example of how the Left manages to cover up its 
own culpability by casting blame on the West in situations where it is 
chiefly responsible for withholding facts or misleading the public.

Use of the Study of the Holocaust Proposed by the National Center for 
                    History in the Schools

    The guidelines in the National Standards for United States History 
proposed in 1994 by the National Center for History in the Schools at 
the University of California, Los Angeles seem to reinforce the idea 
that the main purpose for studying the Holocaust in American schools is 
to indict the United States. The guidelines dealing with the Holocaust 
(pp. 201-202) in this document are as follows:
    ``Demonstrate understanding of World War II and the reasons for the 
Allied victory by: . . .
    Analyzing the dimensions of Hitler's ``Final Solution'' and the 
Allies' response to the Holocaust . . .
    Grades 7-8: Explain what was meant by the ``Final Solution'' and 
draw from primary sources such as eyewitness accounts, oral history, 
testimony of Nazi officials, and documentary photographs and films to 
examine the human costs of Nazi genocide. Using letters, laws, and 
newspaper articles, identify FDR's immigration policy toward Jewish 
refugees from Hitler's Germany. How did Americans respond to news of 
the Holocaust?
    Grades 9-12: Construct a historical argument or debate to examine 
Allied response to the Holocaust. When did the Allies discover the 
scope of Nazi persecution of European Jewry, as well as the persecution 
of Jehovah's Witnesses, Gypsies, homosexuals, and other groups? What 
actions did European nations and the United States take to support 
Jewish immigration? Why did the Allies fail to organize rescue attempts 
and resist appeals to bomb rail lines leading to Auschwitz and other 
camps?''
    There is no question in this document about why the American press 
(especially The New York Times) consistently underreported the 
Holocaust as it was taking place. Nor is there a question about the 
effect of the Holocaust on support by the U.S. for the establishment of 
the State of Israel. Indeed, the Holocaust is completely severed in 
this document from questions about the establishment of the State of 
Israel, a topic covered about 15 pages later. Interestingly, the two 
questions the document poses in this later section seem to be getting 
at something else. The document asks: ``Why did the U.S. State 
Department oppose recognition of the new State of Israel in 1948 and 
why was the U.S. the first country to extend recognition?'' (p. 217)

The Costs of Turning America into Amerika

    The school curriculum is being increasingly used today not to help 
students understand the cultural history of an ``other'' but to call 
attention to a prejudice against nonwhite people that some educators 
and editors see as the dominant characteristic of all Americans of 
European descent (including, ironically enough, the survivors of the 
Holocaust in America). One certain cost in the effort to make America 
look morally equivalent to Nazi Germany is the transformation of the 
literature class into a pseudo-social science class. Can Anne Frank's 
reflections about life and people, or Elie Wiesel's spiritual and 
philosophical responses to the Holocaust, be at the center of student 
attention or be contemplated at all in classrooms where teachers are 
eager to have students address racism, sexism, violence, alternative 
family structures, or homophobia in this country?
    One cannot help but ask this question when the organizing topic for 
a group of instructional selections is clearly racial prejudice and all 
its victims, aside from Anne Frank, are Americans. A particularly 
egregious example of the way Anne Frank's story is used as the linchpin 
for grouping an array of victims of American prejudice appears in 
Macmillan's (1994) instructional reader for grade 7. The editors have 
grouped together excerpts from Anne Frank's diary and a biography of 
Anne Frank by Miep Gies (a member of the Dutch family that hid the 
Franks) with poems by an American Indian and an African American, a 
story about an American Indian child, an anecdote about a Puerto Rican 
child, a chapter from Thurgood Marshall's biography, an excerpt from 
Martin Luther King's Nobel Prize speech, and an excerpt from Beyond the 
Divide, a novel by Kathryn Lasky about a brave Amish girl who survives 
the wilderness in the Old West of 1849 with the help of a small group 
of American Indians. According to the afterword in the novel, this 
group of Indians was in fact gradually massacred by white settlers over 
the next two decades and eventually obliterated as a tribe.
    The thematic motifs suggested by the editors for this unit, 
entitled ``Reach Out,'' are courage, faith, determination, and the need 
for the help of others to survive or succeed in attaining one's goals. 
But even if the teacher emphasizes these motifs and does not use this 
convenient grouping of victims of prejudice to make explicit 
connections between Nazi racism and the prejudice directed at blacks, 
Hispanics, and Indians in this country (or between Nazi racism and 
slavery or the killing of American Indians in the nineteenth century), 
what young student reading this unit could fail to sense and 
internalize the intended associations. This unit is one of the 
cleverest examples of moral manipulation I have come across. The 
editors must have spent a great deal of time sifting through journals 
and various data bases in order to locate a group of selections about 
victims of prejudice in this country at the right reading level that 
could be put together with a Holocaust selection to facilitate transfer 
to white Americans of the moral revulsion that is the normal response 
to Nazi behavior.
    A second cost may lie in the way in which students come to view the 
Holocaust itself when examples of ``intolerance'' can range from the 
Final Solution to, say, the views of the parents who opposed the 
Rainbow curriculum in New York City, as they were regularly 
characterized by editorials and news reports in The New York Times. The 
Holocaust cannot help but be trivialized when the language used to 
classify it as a topic of study in English classes is no different from 
the language used to describe Rush Limbaugh's views on feminists and 
others.
    The greatest costs are clearly civic and intellectual in nature--an 
even deeper discrediting of our political principles, procedures, and 
institutions, the stimulation of greater interracial hatred, and a 
decline in the capacity to grasp and make important intellectual and 
moral distinctions especially in reference to this country's 
principles. The latter can be illustrated in an op-ed essay by Ellen 
Goodman in the Thursday, August 28, 2003 edition of the Boston Globe on 
the removal of a granite block containing the Ten Commandments from the 
grounds of an Alabama courthouse. She opens her essay with an anecdote 
about a Muslim who had murdered his adulterous mother on the grounds 
that she had dishonored the family but who expected an Islamic court to 
exonerate him on the grounds that this would be the ``ruling of God.'' 
Goodman says she doesn't know how jurists using the Koran as their law 
book ruled in this matricide (nor did she indicate if she had sought to 
find out whether civil authorities had sought to prosecute the murderer 
in a civil court, or if one existed), but she sees this anecdote as an 
example of a struggle between democracy and theology in Iraq that is 
similar to ``our own struggles with theocracy and democracy.'' In other 
words, in Goodman's thinking, Chief Justice Roy Moore's placement of 
the monument on courthouse grounds in an attempt to convey the 
historical fact that the American legal system is rooted in a 
particular moral code (the Sixth Commandment of which is ``Thou shalt 
not murder'') is analogous to an expected use of the Koran by Islamic 
judges to justify murder. Whether or not an American judge is a 
Christian or an atheist and such a monument can be on courthouse 
grounds, an American judge's rulings remain rooted in a particular 
moral code. The issues are whether an American judge has the authority 
to place any monument of his choice on public grounds and whether the 
placing of this particular monument amounts to the establishment of a 
particular religion rather than serving as a reflection of a historical 
fact.
    Most English or social studies teachers who use literary or non-
literary materials that imply similarities between Nazis and Americans 
do so, I believe, because they have been taught through the media but 
more directly through course work in schools of education (and probably 
in humanities courses in the arts and sciences) to see intolerance (or 
social injustice) as this country's enduring original sin. Moreover, it 
is not irrelevant that well over 80 percent of K-12 teachers today are 
white middle class females. Sexism has been so consistently associated 
with racism, religious bigotry, and homophobia as types of 
discrimination practiced by white heterosexual males that it is not 
difficult for female teachers today to identify themselves with other 
victims of bias and to accept the implied or explicit extension of the 
psychological dynamics of white male Nazis to white Americans as 
reasonable and as independent of the specifics of the discriminatory 
act itself. In addition, the desire to epater le bourgeois is as much a 
part of American literary and non-literary history (e.g., Mark Twain's 
satires) as is the feminist zeal to correct our moral failings--the 
latter being particularly characteristic of white Protestant females in 
the 19th and 20th centuries. It is also not irrelevant that the 
inspiration for FHAO came from courses in moral education taught by 
Carol Gilligan at the Harvard Graduate School of Education in the mid-
1970s, and that work on FHAO's resource book on the American eugenics 
movement during the 1990s was funded through the Harvard/Facing History 
and Ourselves Project (p. ix), with Gilligan serving as a major 
advisor.
    The earlier effort by some educators (and others) to suggest a 
moral equivalence between America and the Soviet Union has had of 
necessity to be altered. The equation now appears to be evolving into 
one between America and Nazi Germany, with a new twist implying that 
American science in the 19th and early 20th century was responsible for 
Nazi racial policies--and the Holocaust. Attempts by the pedagogical 
moralists in our schools or publishing houses to address intolerance in 
America by reducing America's moral status to that of Nazi Germany in 
the eyes of the young must be addressed openly as a public policy issue 
regarding the school curriculum, not sheltered from open criticism and 
discussion as a matter of teachers' academic freedom or pedagogical 
judgment.

    Senator Alexander. Mr. Hagopian?
    Mr. Hagopian. Senator Alexander, I am honored to be here 
and grateful for this opportunity. I find that it is an 
opportunity to describe the classroom context within which 
these books are used as I share my textbook selection 
experiences out in California.
    Let me start. In the world of the ideal classroom, the 
course offering is history, not social studies. Even E.B. 
White's adventuresome mouse, Stuart Little, knew this. When, 
along his wayward journey, Stuart was pressed into service as a 
substitute teacher, he stood on a stack of books on top of the 
desk and offered comments to the students as they ran through 
their subjects. Some of you in the room may remember this. When 
the students brought up social studies, Stuart Little said: 
``Never heard of them.'' By implication, he and his author had 
studied history, the well-told story that aims to be 
comprehensive as it imparts, as has been said here today, civic 
literacy and public memory. Engaged in this real-world 
endeavor, students advanced their reading, writing, public 
speaking, and reasoned judgment capabilities. Studying history, 
after all, is self-rewarding--the more you know, the more you 
want to know.
    This ideal classroom that I want to describe here is 
staffed by a history teacher. he or she has read and written 
history, hopefully more American history--Ms. Stotsky's point 
is a key one--broadly and deeply. History occupies a place of 
importance in his or her life, and because of this, the teacher 
transmits a contagious enthusiasm about events, personalities, 
words, acts, deeds. I call it the broad sweep--it is interwoven 
in nature--and the controversial aspect of this discipline 
comes through in the lessons.
    Activity varies--reenactment, essay writing, speeches, 
debates, document annotation, biographies, mapping, time-
lining, researching, polling, interviewing, and comprehensive 
exams that help establish what I believe is a platform of 
understanding, a basis for going on.
    Exchange between students and teachers is as lively as the 
links between past and present are profound. In this saturated 
environment I am describing, students produce history as well 
as study it. They recognize history's uses and grow to realize 
that the subject offers invaluable background for any life 
endeavor. Careful reading and notation of understanding forms a 
basis for all the activity and outcomes I mention. These habits 
are conspicuous in the ideal history classroom.
    We know that across the United States, high praise is in 
order for classrooms that do match this description or whose 
scope and ambition exceed it--and many do. We also know that in 
too many classrooms, something called ``social studies'' is 
offered, of which history is one little, self-contained part, 
like one of many dishes on a buffet table.
    Sadly, we know that too many history classrooms are staffed 
by teachers with too little background in or enthusiasm for the 
subject. We also know that in too many classrooms, too much and 
sometimes all instruction is from the textbooks, a condition 
captured in an old favorite cartoon of mine in which the 
teacher is saying to the class: ``Today is February 5, so we 
must be on page 403.''
    Alarming, too, is something else of which we are all aware. 
Careful reading and notation, as textbook expert Gilbert 
Sewall, seated to my left, has observed, is a fast-disappearing 
habit. Not surprisingly, the National Assessment of Educational 
Progress continues to show low student achievement in history 
and civics.
    However dismal and discouraging these plain realities may 
be, I am heartened--and I must say energized--by great efforts 
that I have seen over the past decade and a half to revitalize 
history study in the United States. I am intrigued by the 
example you gave this morning from U.S. News and World Report; 
I cannot wait to see that list of 100 documents and see which 
ones on the banned list I am using. I had better be careful.
    The tremendous interest that I have found in pre-collegiate 
history instruction of numerous academic historians, great 
teachers in their own right, is so encouraging, whether in 
those wonderful Gilder-Lehrman or National Endowment for the 
Humanities summer seminars, those insightful events sponsored 
by the National Council for History Education, those ambitious 
teaching grants in American history colloquia, or the ongoing 
enrichment provided by History Channel and PBS broadcasts, and 
I should mention Ken Burns films, and here in this region, I 
should mention the tremendous efforts at the National Archives, 
the Library of Congress, the Smithsonian, and Colonial 
Williamsburg, the growing partnerships of interested teachers, 
academic and Park Service historians and others is casting a 
widening ray of light over history study in our Nation.
    I have been supported as well by my home State of 
California's History Framework. I went to Dr. Ravitch, to my 
left, who I believe was given honorary citizenship in the State 
of California for her efforts in producing that. First 
published in 1988 and largely renewed with updates in 1997, 
this great guide offers a well-articulated and planned K-12 
curriculum specifying content at all levels through its 
accompanying grade-level standards.
    For me, my States's history framework has served as a 
bulwark against efforts, sometimes considerable efforts, and 
educational fads--many, many of those--that otherwise might 
have succeeded at deemphasizing the history content that I 
believe I have been able to practice.
    Please make one more addition to that ideal history 
classroom I have been describing. Place there for each student 
a truly distinguished textbook. Its lively, sustained narrative 
conveys to the learner through lean, vigorous prose and peppery 
detail so telling that readers are transported to the times and 
sites of great events, crucial decisions, and legacies of all 
kinds. The author often lets history's eyewitnesses and 
documents of an era tell the story. The textbook's illustrative 
material tends toward original art, portraits, documentary 
photographs, related maps and artifacts. And only modest space 
is given over to those chapter reviews.
    The ideal book offers a clear historical chronology, but it 
presents our story in a seamless fashion. As outstanding as the 
book may be, students' reading and notation is not the end-all 
of their history study but merely a prelude to historical 
engagement.
    In reality, American students are increasingly issued 
textbooks as we have been saying that fall embarrassingly short 
of this ideal. The narration resembles, as David McCullough has 
noted, an old piano teacher's favorite lament: ``I hear you 
play all the notes, but I hear no music.''
    Often, in the textbooks under my review, the narrative is 
shrunken, thin in detail, inaccurate in places and, most 
bothersome of all, interrupted page after page by panels of 
poofs, puffs, color bursts, and by TV-screen-shaped, short, 
quick, get-your-history-on-the-go windows, with little 
narrative in between. The overall format seems attuned to that 
of the tabloids, television episode sequencing, and as I have 
said in other forums, the backs of cereal boxes.
    Today's history textbooks are increasingly unitized, and 
that is too bad. After all, the Civil War is a defining, 
transformative, national experience--only in its most 
artificial sense is it a ``unit of study.'' Books that break 
something so compelling as the story of American freedom into a 
series of units that place more emphasis on pedagogy, pre-
tests, posttests, scrambles, and other puzzles do dampen among 
learners the natural ardor that I believe they have for 
history.
    My own experience with California State adoption and local 
selection of history textbooks for my eighth-grade students 
extends back through three cycles. I should say right here that 
I am fortunate to work in a school district that has supported 
the text selections that I have made for my grade level. In 
1983--I will do a quick history of this--I selected from among 
perhaps half a dozen State-adopted texts A Proud Nation. That 
was the title. In format and approach, this was a comparatively 
simple, straightforward book. As I set its presentation of nine 
or ten historical episodes side-by-side with those of others on 
the market, I detected a good measure of its author, Ernest R. 
May's, vivid prose that had impressed me when I read several of 
his works in graduate school. I found more attention paid to 
detail, less to puzzles and games, and where there was some 
special feature, he developed full, flavorful, telling anecdote 
rather than the kind of fragmentary account often found in the 
competitors' books.
    If A Proud Nation was historically meaty, The Story of 
America, which I named for selection in 1990, is even more so. 
the volume is heavy, perhaps weighing 6\1/2\ pounds. Now, there 
is another police--the backpack weight police. We are getting a 
lot of that pull-by-the-handle luggage to take care of that. So 
when I assign the book to my students, I ask them to keep it at 
home in a clean, well-lighted place, ready for use--and use the 
book we do. The students return from nightly readings with 
careful reading notes or identifications that we work toward 
improving throughout the year.
    While daunting at first for some students, most do grow 
accustomed to the demands of the reading. No textbook is full-
blown ideal. However, John A. Garraty's The Story of America, 
with its comprehensive narrative, document basis, rich art and 
portraiture comes closer to the ideal, at least, than any other 
entry in the last three adoption cycles.
    In fact, in the subsequent adoption year, 1999, when Story 
of America was replaced, and I collected California's new 
adoptions for consideration, not one of them came even close to 
my history book gold standard. All, in my opinion, had embraced 
the thing, fragmented, distracting pitfalls I have already 
described.
    It seemed to me that several of the new books exhibited 
another minus--they avoided controversy--and they were far from 
simple books in format and came with superfluous ``kits.'' 
These text supplements more often than not amounted to extra 
puzzles and jumbles rather than documents or photo aids. And 
these books are absurdly expensive, I should say. I recall 
assembling a group of eighth-graders and letting them compare 
the new books in the textbooks sweepstakes according to an 
ideal textbook criteria, and I asked them to include Mr. 
Garraty's book in the comparison--and hands down, they chose 
Story of America. I was secretly glad.
    So in 1997, I sought out Gilbert Sewall's advice as the 
time approached to make my textbook selection. Mr. Sewall 
recognized that with my own history background and the 
materials and documents that I used, my students and I would 
fare just fine through another adoption cycle by purchasing 
from the publisher's warehouse enough extra copies of Story of 
America to have on hand through 2004.
    I will conclude here. Back home, another promising school 
year has begun. Along with teaching duties, I will be involved 
in another foray into history textbook selection as we have 
reached the end of yet another cycle. I am not aware of any 
reversal in the book publishers' retreat from quality. Trying 
to ``think big'' the other night, I tried to envision how to 
precipitate movement along a path toward history textbook 
excellence.
    I determined that all it would take is some economic 
robustness and a Governor in just one State who would take one 
bold step. Buoyed by the diverse efforts to revitalize history 
instruction that I have already mentioned, this Governor would 
ask history professors at his or her various State university 
campuses to assemble the brightest, best, most articulate and 
most enthusiastic history undergraduates, with hopefully more 
than a little, let us say, United States history study and 
plenty of world history study. Then, in an act of great 
foresight, this Governor would personally recruit these 
promising collegians to the State's history classrooms and to 
careers as history teachers. The Governor would then call upon 
the leading school system educators and beckon them to in every 
way make the profession more attractive--attractive enough to 
divert away some of the customary traffic from the law, 
business, and banking schools. History classrooms thus staffed 
would, I believe, lead to a demand for better books, and I 
believe this would create some attention across the Nation.
    If we say we want to strive for the best, I believe we must 
think big.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Hagopian follows:]

                 Prepared Statement of Robert Hagopian

    Mr. Chairman, Committee Members, and Staff, I am indeed honored and 
grateful to have this opportunity to testify on the quality of history 
textbooks in our schools. Because I have been so involved in their 
selection and use over my 32-year teaching career and because I 
recognize their utility in history instruction, I applaud your 
interest. Today I find it necessary to describe the classroom context 
within which these books are used as I share my textbook selection 
experience.
    In the world of the ideal classroom, the course offering is 
history, not social studies. Even E. B. White's adventuresome mouse, 
Stuart Little knew this. When along his wayward journey Stuart was 
pressed into service as a substitute teacher, he offered comments to 
the students as they ran through their subjects. When the students 
brought up social studies, Stuart Little said, ``Never heard of them.'' 
By implication, he--and his author--had studied history, the well-told 
story that aims to be comprehensive as it imparts civic literacy and 
public memory. Engaged in this real-world endeavor, students advance 
their reading, writing, public speaking, and reasoned judgment 
capabilities. Studying history, after all, is self-rewarding: the more 
you know, the more you want to know.
    This ideal classroom is staffed by a HISTORY teacher. He or she has 
read and written history, broadly and deeply. History occupies a place 
of importance in his or her life, and, because of this, the teacher 
transmits a contagious enthusiasm about events, personalities, words, 
acts, deeds, the broad sweep--interwoven in nature--and the 
controversial aspect of this discipline. Activity varies: reenactment, 
essay writing, speeches, debates, document annotation, biographies, 
mapping, time-lining, researching, polling, interviewing, and 
comprehensive exams that help establish a platform of understanding. 
Exchange between students and teacher is as lively as the links between 
past and present are profound. In this saturated environment, students 
produce history as well as study it. They recognize history's uses and 
grow to realize that the subject offers invaluable background for any 
life endeavor. Careful reading and notation of understanding forms a 
basis for all the activity and outcomes I mention. These habits are 
conspicuous in the ideal history classroom.
    We know that across the United States, high praise is in order for 
classrooms that match this description or whose scope and ambition 
exceed it. We also know that in too many classrooms something called 
social studies is offered, of which history is one little self-
contained part, like one of many dishes on a buffet table. Sadly we 
know that too many history classrooms are staffed by teachers with too 
little background in or enthusiasm for the subject. We also know that 
in too many classrooms too much--and sometimes all--instruction is from 
the textbook, a condition captured in an old cartoon in which the 
teacher is saying to the class, ``Today is February 5, so we must be on 
page 403.'' Alarming, too, is something else of which we are aware: 
Careful reading and notation, as textbook expert Gilbert Sewell has 
observed, is a fast disappearing habit. Not surprisingly the National 
Assessment of Educational Progress continues to show low student 
achievement in history and civics.
    However dismal and discouraging these plain realities may be, I am 
heartened--and, I must say, energized--by great efforts I have seen 
over the past decade and a half to revitalize history study in the 
United States. The tremendous interest in pre-collegiate history 
instruction of numerous academic historians, great teachers in their 
own right, is so encouraging. Whether in those wonderful Gilder-Lehrman 
or National Endowment for the Humanities summer seminars, those 
insightful events sponsored by the National Council for History 
Education, those ambitious Teaching Grants in American History 
colloquia, or the ongoing enrichment provided by History Channel and 
PBS broadcasts and Ken Burns films, the growing partnerships of 
interested teachers, academic and park-service historians and others is 
casting a widening ray of light over history study in our nation. I 
have been so supported, as well, by my home State of California's 
History Framework. First published in 1988 and largely renewed with 
updates in 1997, this great guide offers a well articulated and planned 
K-12 curriculum, specifying content at all levels through its 
accompanying grade-level standards. For me my State's history framework 
has served as a bulwark against efforts and educational fads that 
otherwise might have succeeded at de-emphasizing history content.
    Please make one more addition to that ideal history classroom I 
have been describing. Place there for each student a truly 
distinguished textbook. Its lively, sustained narrative, conveys to the 
learner through lean, vigorous prose, and peppery detail so telling 
that readers are transported to the times and sites of great events, 
crucial decisions, and legacies of all kinds. The author often lets 
history's eyewitnesses and documents of an era tell the story. The 
textbook's illustrative material tends toward original art, portraits, 
documentary photographs, related maps, and artifacts. And only modest 
space is given over to chapter reviews. The ideal book offers a clear 
historical chronology, but it presents our story in a seamless fashion. 
As outstanding as the book may be, students' reading and notation is 
not the end-all of their study but merely a prelude to historical 
engagement.
    In reality, American students are increasingly issued textbooks 
that fall embarrassingly short of this ideal. The narration resembles, 
as David McCullough has noted, an old piano teacher's lament: ``I hear 
you play all the notes, but I hear no music.'' Often, in the textbooks 
under my review, the narrative is shrunken, thin in detail, inaccurate 
in places, and, most bothersome of all, interrupted page after page by 
panels of poofs, puffs, color bursts, and by TV-screen-shaped, short, 
quick, get-your-history-on-the-go windows with little narrative in 
between. The overall format seems attuned to that of the tabloids, 
television episode sequencing, and, as I have said in other forums, the 
backs of cereal boxes. Today's history textbooks are increasingly 
unitized, and that is too bad. After all, the Civil War is a defining, 
transformative national experience; only in its most artificial sense 
is it a ``unit of study.'' Books that break something so compelling as 
the story of American freedom into a series of units that place more 
emphasis on pedagogy, pre-tests, post-tests, scrambles, and other 
puzzles do dampen among learners what I believe is a natural ardor for 
history.
    My own experience with California State-adoption and local 
selection of United States History textbooks for my eighth-grade 
students extends back though three cycles. I should say right here that 
I am fortunate to work in a school district that has supported the text 
selections that I have made for my grade level. In 1983, I selected 
from among perhaps a half dozen State-approved texts, A Proud Nation. 
In format and approach, this was a comparatively simple, 
straightforward textbook. As I set its presentation of nine or ten 
important historical episodes side by side with the others on the 
market, I detected a good measure of its author Ernest R. May's vivid 
prose that had impressed me when I read several of his works in 
graduate school. I found more attention paid to detail, less to puzzles 
and games. And when there was some special feature, he developed a 
full, flavorful, and telling anecdote rather than the kind of 
fragmentary account often found in the competitors' books.
    If A Proud Nation was historically meaty, The Story of America, 
which I named for selection in 1990, is even more so. The volume is 
heavy, perhaps weighing six pounds. So when I assign the book to my 
students, I ask them to keep them at home in a clean well-lighted place 
ready for use. And use the book we do. The students return from nightly 
readings with careful reading notes, or identifications, that we work 
toward improving throughout the year. While daunting at first for some 
of the students, most grow accustomed to the demands of the reading. No 
textbook is full-blown ideal. However, John A. Garraty's The Story of 
America, with its comprehensive narrative, document basis, rich art and 
portraiture comes closer to the ideal than any other entry in the last 
three adoption cycles. In fact, in the subsequent adoption year, 1997, 
when Story of America was replaced and I collected California's new 
adoptions for consideration, not one of them came even close to my 
history book gold standard. All in my opinion had embraced the thin, 
fragmented, distracting pitfalls I have already described.
    It seemed to me that several of the new books exhibited another 
minus: they avoided controversy. And they were far from simple books in 
format and came with superfluous ``kits.'' These text supplements more 
often than not amounted to extra puzzles and jumbles rather than 
documents or photo aids. And these books are absurdly expensive. I 
recall assembling a group of eighth graders and letting them compare 
the new books in the textbook sweepstakes according to an ideal-
textbook criteria, and I asked them to include Mr. Garraty's book in 
the comparison. Hands down, they chose Story of America.
    So, in 1997, I sought out Gilbert Sewell's advice as the time 
approached to make my textbook selection. Mr. Sewell recognized that 
with my own history and materials and documents, my students and I 
would fare just fine through another adoption cycle by purchasing from 
the publisher's warehouse enough extra copies of Story of America to 
have on hand for students through to 2004.
    Back home, another promising school year has begun. Along with 
teaching duties, I will be involved in another foray into history 
textbook selection, as we have reached the end of another adoption 
cycle. I am not aware of any reversal in the book publishers' retreat 
from quality. Trying to think big the other night, I tried to envision 
how to precipitate movement along a path toward history textbook 
excellence. I determined that all it would take is some economic 
robustness and a governor in just one State who would take one bold 
step. Buoyed by the diverse efforts to revitalize history instruction I 
have previously mentioned, this governor would ask history professors 
at his or her various State university campuses to assemble the 
brightest, best, most articulate, and most enthusiastic history 
undergraduates. Then in an act of great foresight, this governor would 
personally recruit these promising collegians to the State's history 
classrooms and to careers as history teachers. The governor would then 
call the leading school-system educators together and beckon them to in 
every way make the profession more attractive--attractive enough to 
divert away the customary traffic flowing to the law, business, and 
banking schools. History classrooms thus staffed would lead to a demand 
for better books. If we say we want to strive for the best, I believe 
we must think big! Thank you.

    Senator Alexander. Thank you to all four of you for your 
written and your oral testimony.
    Senator Ensign has joined us, and what I would like to do 
is take about 5 minutes and ask questions, and then I will turn 
it over to him for 5 minutes, and we will just go back and 
forth unless someone else comes. Then, we will end the hearing 
at about 11:30.
    Listening to your comments, I began to make a list of all 
the obstacles to the ideal kind of textbook that you described, 
although it was interesting to me that you were actually able 
to choose one, and you somehow made your way through, Mr. 
Hagopian, all of the obstacles and were able to select a 
textbook.
    On my list are: weak textbooks, weak standards, social 
studies instead of history, adoption committees, bias and 
sensitivity committees, no competition in the publishing 
industry, or not much, low teacher qualifications, colleges of 
education that do not emphasize history, Federal legislation 
that emphasizes things other than history, and then, one which 
to me increasingly seems to be at the root of it all--a real 
difference of opinion in the United States and especially among 
many professional educators about whether it is really 
important to teach American history, whether it is really 
important to have a common culture or whether we are a United 
States of America or just a lucky sort of United Nations, with 
people having arrived in this great, big place with lots of 
money and opportunity, and we just should be happy of wherever 
we came from, without much regard to wherever we have come. 
Now, those are a lot of obstacles, and Senator Ensign, before 
you came, I wanted to encourage the panelists to give ideas 
back and forth, so let me try to focus in on this.
    You have described in the development of standards, Dr. 
Stotsky, and also, Dr. Ravitch especially in the writing of 
textbooks, this army of ideologues from the right and the left 
and from the right wing, the left wing, and every wing, as you 
said, Dr. Ravitch, who descend upon the standard-writers or the 
textbook writers and publishers or the test-writers, and insist 
that everything be just thus and so. And I guess they descend 
upon teachers as well perhaps who are even more vulnerable, 
because they are there by themselves, and if you teach about 
the underground railway or you teach about religion or you 
teach about something in a way that someone does not like, you 
are going to hear from some of these people often in an 
organized way.
    So with tests, with standards, and with classroom teaching, 
I guess an obvious question is how do we provide a counter to 
those special interest groups. One example of what usually 
happens in American society is that you have counter-groups. 
You have some broad-based group or groups or some institutions 
that take the other side of it and say, Whoa, wait a minute.
    I will give you example. In the legislation that the Senate 
passed 90-to-nothing, we talk about two things in the First 
Amendment--the free exercise of religion as well as not 
establishing a religion. By the time it got over to the House 
of Representatives, someone wanted to change that because they 
did not want to talk about the establishment of religion.
    That is the kind of thing that goes on. I am going down on 
Friday to Tennessee to a celebration of those who were in the 
battle of King's Mountain, which was a Revolutionary War 
battle. This was a bunch of pioneers who won that battle, and 
their reason--they went down on their knees to pray with a 
fire-and-brimstone teacher named Samuel Doake before they went 
over the mountain to fight, a big prayer about the Lord and 
Gideon which has been recorded in all of our textbooks in 
Tennessee--but the reason they were fighting was because they 
were tired to paying taxes to support the bishop of a church 
that they did not belong to.
    So it is a wonderful story that emphasizes the importance 
of religion even to those pioneers and how it pervaded every 
aspect of their lives. They would not go out and fight a battle 
without it, yet it also provides a story of what we meant when 
someone wrote into our Constitution that we did not want an 
established religion in this country. Yet many teachers, even 
Congressmen, many textbooks, many tests, I guess, shy away from 
a discussion about what we mean by the free exercise of 
religion and what we mean by the establishment of a church.
    So how do we provide a counter-balance to all of these 
people from every wing who have a perfect right in our country 
to say what they believe? One possibility might be that the 
Albert Shanker Institute has put out a recent study which has a 
lot of signatories from every direction. I notice that just at 
Harvard, they have Henry Lewis Gates and Harvey Mansfield 
agreeing, which is pretty good, and if we have that kind of 
background of a broad base of diversity, maybe the Albert 
Shanker Institute or other institutes in America might provide 
a counterweight.
    So how do we go up against the zealots and give some light 
to the textbooks, the tests and the classroom teaching?
    Dr. Ravitch?
    Ms. Ravitch. Senator Alexander, I want you to add to your 
list of the problems the very act of the State adoption 
process, because that is where these very small groups--it can 
be just a letterhead group--can get people frightened and 
intimidated. And if you have a true marketplace where there are 
3 million teachers buying textbooks like Mr. Hagopian--he 
selected a textbook that is actually going out of print. The 
two best textbooks that I am familiar with--one is the 
Boorstein-Kelly Book--the lead author is Daniel Boorstein, the 
emeritus librarian of Congress, which is a wonderful book; and 
the Garraty book--but the States today say these books are too 
hard. Kids cannot read all this text. They need more graphics 
and more dazzle and more web pages. So they are going out of 
print. But they should not go out of print. If there were a 
real marketplace, he could continue to find a publisher 
delighted to sell 30,000 copies instead of a million copies and 
able to make a reasonable profit going to his market.
    I wanted to make a couple of other observations, and they 
bear on this point. I was on a talk show one night, talking 
about this subject, and man called in and said, ``I am in 
Denton, TX, and I went to the State history adoptions, and I 
did not like the way the textbook presented the story of what 
happened at Omaha Beach. They called it' a tragic day at Omaha 
Beach.'''
    So I sat down with the State board, and we rewrote the 
story, and it is now ``a heroic day at Omaha Beach.'' Well, 
that is fine, but you know, that is a political rewriting of 
history, and if everybody gets to rewrite everything that they 
do not like in the textbook, what in the world will kids get 
other than this kind of homogenized pap?
    Another point on the same subject is that as a member of 
the National Assessment Governing Board, I saw a letter come in 
a few months ago from a woman who said, ``I see that one of 
your questions relates to the Armenian genocide. I am of 
Turkish descent, and there was no Armenian genocide. Please 
take that question out.''
    Well, a lot of test publishers would drop the question 
because they do not want to have a problem, but the staff 
actually went to the trouble of going to the Library of 
Congress, going to a number of eminent historians, and after a 
review that consumed months, responding to that parent and 
saying, ``We are sorry--we disagree with you--there was an 
Armenian genocide, and the question is not going.''
    But not many publishers would be willing to show that 
degree of courage.
    Just one other point about the question that Sandy Stotsky 
mentioned on multiple perspectives. This is now a mantra in the 
social studies field. We do not have a point of view; we teach 
multiple perspectives. This is in fact a dishonest statement. 
We do not teach the point of view of the slave owners. We do 
not teach the point of view of Hitler and the Nazis. We do not 
teach the point of view of the Holocaust deniers. We do believe 
that there is a perspective that American citizens learn, and 
it is the perspective of democratic institutions, the rule of 
law, and the principles that are embodied in our Constitution 
and Bill of Rights. And as long as the social studies field 
continues to cling to this idea of multiple perspectives, we 
cannot teach American citizenship or civic values or democratic 
values because that represents a point of view, and that is not 
acceptable.
    But the question that I would like to turn to ask my fellow 
panelists, since you encouraged us to discuss, is one that I--
--
    Senator Alexander. Before you do that, what about my 
question--how are we going to provide a counterweight to the 
people you described as left wing, right wing, and every wing? 
How do you embolden textbook publishers, teachers----
    Ms. Ravitch. It was in my first statement, which is----
    Senator Alexander. To get rid of the adoption.
    Ms. Ravitch [continuing]. If the States stopped adopting 
textbooks, that would open up the marketplace for small 
publishers.
    Senator Alexander. How did that get started?
    Ms. Ravitch. It got started after the Civil War because the 
Southern States did not want anyone to use textbooks that 
taught the story of the Civil War from a Northern perspective, 
so they wanted to control the textbooks that came into their 
States and make sure that the story that was told in Georgia 
and Mississippi and Alabama and Louisiana and other States that 
took this decision to adopt textbooks, their children would 
learn of the war of Northern aggression.
    Senator Alexander. Did that then spread to the rest of the 
country?
    Ms. Ravitch. It spread to some States because they thought 
they saw some advantage to it. California did not have that 
reason, and I have--Gil will know better; Gil is a Californian, 
and maybe Mr. Hagopian can comment on this--but I read a 
dissertation on California's decision to begin State textbook 
adoption, and it seemed to be for reasons of efficiency, but it 
has certainly not made the materials cheaper; if anything, they 
are more expensive than they have ever been.
    Senator Alexander. But basically, we have a situation now 
where every State or most States have it?
    Ms. Ravitch. Twenty-two.
    Mr. Sewall. About half the States, mainly in the West and 
South. The original rationale behind State adoption was quality 
control. This is no longer the case, and in fact the three 
largest State adopting States--California, Texas, and Florida--
are really adopting almost everything that comes to the table.
    Senator Alexander. Say that again, please.
    Mr. Sewall. What the publishers submit, they are putting on 
their lists.
    Senator Alexander. So in those three States----
    Mr. Sewall. So quality control is a joke.
    Senator Alexander [continuing]. Which represent about 30 
percent of all the people in the country would be those three 
States, or more; they put on an approved list of textbooks for, 
say, U.S. history or social studies----
    Mr. Sewall. Correct.
    Senator Alexander [continuing]. About any book that the 
publisher sends them, but there is now only a limited number of 
publishers; is that correct?
    Mr. Sewall. At one time, States were selective, but this is 
no longer the case because of consolidation.
    Senator Alexander. I will go to Senator Ensign, but just to 
get to the bottom--then, how is Mr. Hagopian in California--
California has a State adoption process like that and a limited 
number of publishers, but you were still able to get a textbook 
that you thought was a pretty good one, The Story of America; 
right?
    Mr. Hagopian. I thought the choices decreased through the 
three cycles--six books, and I think they were--I do not know 
the size of these publishing houses----
    Senator Alexander. What choices did you have, say, for U.S. 
history?
    Mr. Hagopian. Two in 1990. There was Houghton Mifflin, and 
there was Holt.
    Senator Alexander. Those were the only ones approved by the 
California State review committee that decides what textbooks 
you can use.
    Mr. Hagopian. Yes.
    Senator Alexander. What do you do--just ignore those 
textbooks when you teach your course?
    Mr. Hagopian. Well, fortunately, the Garraty book was one 
of the two.
    Senator Alexander. But what do good teachers do when 
presented with dull textbooks?
    Mr. Hagopian. In 1999, that was exactly my question, and 
the gentleman to my left helped me with an answer. He said: 
Stick with what you have. Go to the warehouse.
    Mr. Sewall. Ask for a State exemption, which localities and 
districts can do, and use the old textbook rather than the new 
and so-called improved books that the publishers have brought 
to the market in 1999.
    Ms. Stotsky. I was going to respond to your question, too, 
if I may, but I do not want to interrupt what you were going to 
say.
    Senator Alexander. Go ahead.
    Ms. Stotsky. I just wanted to take a stab at your question 
about where might the sources of counter-pressure come from.
    Senator Alexander. Senator Ensign, the Massachusetts 
standards, which Dr. Stotsky is the chief administrator for, 
are among the best in the country and withstood a series of 
attacks from these various wings on the way up. I would be 
interested to hear how you did that.
    Ms. Stotsky. One needs first of all a lot of transparency 
in the process, and this may vary from State to State. You need 
to start with some good people on an advisory committee, and 
who is appointed to that advisory committee should be on the 
front page of the major newspaper in the State, why they were 
chosen. This at least starts to get the process out in the open 
so it is not certain groups controlling who gets to be 
appointed to be on the working committee to develop standards. 
That is one place to start. And they have to be publicized and 
the rationale for why they are on the committee and who they 
represent needs to be clear.
    Then, there need to be drafts that are made available, 
clearly, and the major newspapers have to help out here. Again, 
we need a lot of good public relations.
    There also needs to be good representation from our 
different branches of Government, because as you well know, if 
anyone has a vested interest in the maintenance of our 
democratic institutions and procedures, it is the people who 
are elected politicians in our State Senate, State legislature, 
Governor's office, and so on.
    I was very fortunate to have one of our State Senators who 
agreed to help chair the revision of our U.S. history 
standards. He was an old history major, and he helped with a 
select group of history teachers work out the final revisions 
of our history standards. He was a Democrat. We had a 
Republican Governor. So everybody was happy because we had 
total bipartisan input, and no one could say that the standards 
were either Republican standards or Democrat standards, because 
he was thrilled to work with a good group of U.S. history 
teachers at the high school level and revise these standards. 
He cared deeply about American citizenship, and he spread the 
word to his colleagues in the State Senate that this was what 
he was doing. So this was in a sense depoliticizing the 
standards by throwing it right into politics in a sense.
    But that kind of transparency is part of what you need to 
activate.
    A third group, I discovered by accident, and we are very 
fortunate in Massachusetts because our history in our State 
museums and historical societies is national history to a large 
extent. We were able to discover a huge number of State and 
local historical societies and museums that had been ignored 
for 20 to 30 years, and suddenly, they saw first drafts of 
standards that looked like they were tapping traditional 
American history again. This was revising them because their 
holdings are all about American history. They are not about the 
citizens of other countries. They are about the citizens of 
this country. So that suddenly, we got hundreds of letters 
asking to be a part in some way of the standards to help 
implement the standards, so we have another group of people who 
represent communities, chambers of commerce, very eminent 
citizens in all the towns that are active with historical 
societies and local museums.
    So there is another group that can be tapped to some 
extent, but you need a big transparency in your process to do 
this.
    Senator Alexander. Senator Ensign?
    Senator Ensign. Thank you, Mr. Chairman. I appreciate you 
having this hearing. I think it is a very important hearing, 
because this is a serious problem that we have in our schools.
    Obviously, in the time since a lot of us have gone to 
school, there are hugh differences compared to what the schools 
are teaching today. Dr. Ravitch, you were talking about 
perspective and the multiple perspectives that we try to teach 
from. The argument that I have heard used, is that, for 
instance, when somebody sees an accident or a crime being 
committed, and you take three different witnesses, they may see 
different things. So, depending on who is reporting the history 
it will depend on the perspective that they write it, and 
therefore, they think that writing it from multiple 
perspectives is the way that we need to go.
    Having said that, I agree with you. Part of teaching 
history, in my opinion, is teaching those principles to our 
children, the next generation. It is not only teaching 
historical facts; it is also teaching historical principles. 
And if you want to teach rule of law, if you want to teach the 
importance of democratic principles, of free market principles, 
versus a socialistic or a communist type of perspective, you 
have to teach from the perspective that our Founders had. From 
that perspective it can be taught how some of the things that 
happened throughout our history and throughout world history--
why they have or have not worked. And if you try to be 
``politically correct'' and give equal weight to all historical 
perspectives, and this is why they believed, and those kinds of 
things, I think you just end up teaching mush to the children. 
You want them to be able to critically think, but you also need 
to give them the perspective on history of what really worked 
and what did not, not just here are these different 
perspectives, but also what historically has worked.
    Also, I fundamentally believe that a lot of this comes down 
from the rejection of truth. If there is no truth in the world, 
then how can there be moral absolutes? I love to go to the high 
schools and ask kids are there moral absolutes? Most of the 
kids will say no. So I will get one of the kids and say, ``So 
there are no moral absolutes. Are you absolutely sure that 
there are no moral absolutes?'' That always gets them to think 
a little bit.
    But the rejection that there are certain rights and wrongs 
has led us to where we are today. Now, having said that, who 
determines the individuals who serve on these bias committees? 
Do the publishing companies rely on their own qualifications, 
or do they rely on the guidelines provided by groups like the 
American Psychological Association?
    Ms. Ravitch. What I found, Senator, is that there has been 
an accretion. In other words, the bias guidelines began to 
develop in the late sixties and early seventies. A lot of the 
assumptions in these guidelines have just become completely 
obsolete, but they stay there forever. So that, for example, 
the Educational Testing Service bans the use of the word 
``yacht'' because ``yacht'' is an elitist term, and no American 
child is supposed to know it, or only the rich know the word 
``yacht'' because they are the only ones who actually have ever 
been on a yacht. Well, I have never been on a yacht, but I know 
what it is.
    The other assumption that the bias guidelines make, 
particularly in the testing industry, is that girls cannot 
answer questions about supports because girls do not 
participate in sports; girls cannot answer questions about the 
military because girls are not in the military. This is all 
totally obsolete, but it just keeps growing and growing, and 
the list of topics or words that are banned remain there.
    I have come to the conclusion over months of talking to 
people about these issues that the overwhelming majority of 
people thinks this is ridiculous. I have had very little 
contact with people calling and saying, ``I demand that the 
word' actress' stay out of our vocabulary.'' I mean, heaven's 
stake, the Emmy Awards, the Academy Awards, and the Tony Awards 
give awards to actresses, the best actress and the second 
leading actress, etc., and no one seems to think this is a bad 
thing.
    I read every day in The New York Times words that are 
supposed to not ever appear in a textbook. When David Brinkley 
died, they ran an op-ed piece titled, ``David Brinkley, 
Anchorman,'' and I thought, oh, good grief, don't they know you 
are not supposed to say that word?
    I think all of this comes about because there really is no 
public scrutiny, and I think that if the States would just 
agree to publish their bias guidelines, make public the 
deliberations--what are you removing, what are you deleting, 
what are you censoring--then we could as citizens decide for 
ourselves whether this is reasonable or whether it is 
ridiculous.
    Senator Alexander had said we should talk to each other, 
and I had a question because it is posed to me time and again. 
Whenever I talk about the subject of this kind of bias and 
sensitivity review and taking out words that offend anybody, 
anywhere, sooner or later somebody says, ``I am a concerned 
citizen. What can I do?'' I get emails all the time saying, ``I 
want to join your organization,'' and I do not have an 
organization; I am just a writer.
    So what can we do to bring this out into the open, to 
develop greater transparency so that those restrictions that 
are reasonable are viewed by the public and remain there, and 
the ones that are ridiculous get laughed out of existence.
    Ms. Stotsky. Could I suggest there is another aspect to it 
that does need to be addressed as well. From my understanding 
having been in the Department of Education, we were told over 
and over again by our legal counsel whenever I raised questions 
about what was being considered bias that it was very important 
to have bias committees in order to protect the Department of 
Education, or that schools needed them to protect themselves 
against lawsuits, and that without bias review, there would be 
lawsuits that would be consuming our time, and who would be 
having these lawsuits against the Department or others would 
typically be the aggrieved parents of students who are failing, 
who would then claim that students fail because there was 
either a hostile environment created by insensitive questions 
or some--there is a particular legal language that is used that 
indicates that this is preventing a student from performing at 
their best in answering a question because of some damage 
created by the question. So that is the issue.
    Senator Ensign. Could I just make a comment on that? I 
think that that is so prevalent today. I grew up in the West, 
and in the West, you have a certain perspective--you really do. 
It is different from the East. First of all, Western history is 
taught more in the West, and there is much more of the Civil 
War and the Revolutionary War taught here in the East. Because 
of proximity students can learn it better back here. There is 
no question about that.
    So because we in the West are at a disadvantage that we do 
not live and breathe the history of the Revoluntionary or Civil 
War as much in the West, should it not be taught? If you take 
this concept to the nth degree, you could make the argument 
that because people in Alaska are isolated to a great degree, 
or people in Hawaii have a different culture, that they should 
not learn what other continental U.S. students learn because 
they are not exposed nearly as much. This could lead people to 
say that sutdents in Alaska and Hawaii would be disadvantaged 
on a test, because they are lot farther away because it is not 
part of the daily culture like it is for someone who lives 
around Colonial Williamsburg. Certainly, their perspective on 
history is going to be much more in their daily lives.
    So I think that that is such an important concept to get 
out of our teaching. Simply because it may disadvantage certain 
people does not mean that we should dumb down our entire 
educational system.
    Thank you, Mr. Chairman. I know my time is up so I want to 
thank the panel. This is a discussion that needs to be had a 
lot more across the United States. One of the greatest powers 
that we have as Senators or Members of Congress is the power to 
convene people together, so I want to compliment you, Mr. 
Chairman, on bringing this issue up and starting something that 
hopefully will continue. We need to continue to push this issue 
much more dramatically. I will close with this. Back in the 
early 1800's, there was a man named William Wilberforce, and 
there were two things that he did in his life. One was to 
abolish slavery in the United Kingdom. He was the one who was 
really, truly responsible for abolishing the slave trade. The 
other was the restoration of manners. And when I say 
``manners,'' I do not mean being polite. He wanted to restore 
manners so that it again became politically correct to act 
properly. In England it had become politically incorrect to 
treat people with respect and to have good morals. What we have 
to do as part of our responsibility as leaders is to lead the 
country in the right direction instead of leading it in the 
wrong direction, and ensuring that students are taught the 
facts and not just historical perspectives is all part of that.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Ensign, and we will 
pass on the compliment to Senator Gregg, who dreamed up this 
particular hearing, but it is a subject that Senator Ensign and 
many of our Senators are very interested in.
    Tomorrow, for example, David McCullough is going to join a 
small group of Senators and congressmen to talk about how we 
can identify all the various activities we have in the United 
States Government, of which there are a lot--there are more 
than we know, really--various efforts to try to encourage the 
teaching of American history and civics in particular, and then 
we probably will do the same with groups outside of American 
Government.
    I promised the panelists that we would bring this to a 
close at about 11:30, so I will do that with this comment, 
maybe in a way in answer to my own question. Dr. Ravitch 
suggested we get rid of the State adoption process. That sounds 
like something well worth pursuing, and maybe this panel could 
take its argument to the meeting of the National Governors' 
Association, which meets twice a year, once in February and 
once in the summer. Many Governors might get most of their way 
through a term without knowing or understanding exactly how 
textbooks get adopted. I know that I did, and I was pretty 
active in education. It is just not one of the first things you 
do when you come in as Governor, to figure out what to do about 
that, other than appoint a few people to these commissions.
    But Dr. Stotsky, your suggestion about how you succeeded in 
Massachusetts in establishing high standards and resisting 
narrow interests was not to take your process to the back room 
but to take it out in the open. In other words, in a way, you 
put your confidence in the broadest number of Americans, which 
is also a very good lesson of American history going back to 
the beginning of our country.
    So maybe we need to look for ways to create and involve 
institutions and organizations that represent the broader 
number of Americans rather than narrow interests and make them 
a part of the process.
    I happen to agree with that. I think, just as Dr. Ravitch 
found out with her book, that once she lays this out there, 
most people would think it was a Dave Barry column. They would 
not believe it. They would think she made up the whole back 
section of her book, it is so absurd, and you could not watch 
any movie or hold any conversation without running afoul of 
some ridiculous prescription from a bias and sensitivity 
council, and you wonder why anybody is wasting money and time 
on such things, and hopefully, everyone is ignoring what they 
suggest, but they are not.
    One other example of the idea of spreading out the broader 
number of people, if you will permit a little bit of a 
commercial, is that the Senate passed by 90-to-nothing this 
year legislation which I and many other Senators introduced to 
create summer residential academies for outstanding teachers 
and outstanding students of American history and civics. They 
are modeled on the idea of the Governors' Schools, which more 
than two dozen States have had for a number of years. And I 
believe that if you were to bring together 200 of the best 
history and civics teachers in California, for example--the Mr. 
Hagopians of the world--and give them 2 weeks to focus on that 
subject, we as Americans would be comfortable with just about 
whatever they would come up with, because I think if they are 
broadly selected and given their knowledge and background, they 
would excite one another, and they would develop lesson plans 
and ways to deal with subjects, ways to teach difficult 
subjects or interesting subjects, go back to their schools and 
infect those schools with new enthusiasm for the teaching of 
American history and civics. And in the same way, if students 
of American history and civics were able to spend a month at a 
summer residential academy sponsored, say, by the Library of 
Congress and the University of North Dakota or the University 
of Massachusetts and the John Adams House, or one of your 
historical associations, or one of the National Park Service's 
historical centers, that those students would go back to their 
classes and their schools with a great understanding of 
American history.
    So that legislation has 230 sponsors in the House, and it 
is just one of a number of things that the Federal Government 
is trying to do.
    Senator Gregg intends that this just be the beginning of a 
discussion of this subject. You have provided in your testimony 
and in your work and in your lives a good record for us to 
publish and to circulate to others.
    I would encourage you in the next 2 weeks, if you have 
something you would like to add to your testimony or something 
you would like to add to the record, we would welcome it, and 
we look forward to working with you and continuing to discuss 
American history, civics, textbooks and standards.
    Thank you very much for your time. The hearing is 
adjourned.

                          ADDITIONAL MATERIAL

               Prepared Statement of Stephen D. Driesler
    Mr. Chairman, and Members of the Committee, the Association of 
American Publishers' (AAP) School Division represents the principal 
trade association of the educational publishing industry for 
kindergarten through twelfth grade. AAP members publish over 85 percent 
of all the textbooks and other instructional materials including tests 
and assessments used in our nation's primary and secondary schools.
    Thus, AAP has a great interest in the subject matter of this 
hearing and wishes to submit for the record the views of the 
educational publishing industry.
    Let me start out with a riddle: I am loved, I am loathed, I am 
immeasurably influential and controversial. I offer a road to success, 
yet not all respect me. I make a mistake, I make the headlines. I am a 
product of years of thoughtful planning and politicizing, but I 
occasionally find myself floating in a toilet bowel.
    What am I?
    A textbook.
    It is important for members of this Committee to understand that 
textbooks in public elementary and secondary schools in the United 
States are paid for by tax dollars and given to students free of 
charge. Because textbooks are purchased with public funds, the 
selection of which textbooks get purchased and used in our schools 
involves a lot of public scrutiny. Textbook selection often becomes a 
political battle, much like a legislative fight in which competing 
interests try to persuade public officials to their point of view.
    It also must be remembered that in America, citizens have a First 
Amendment right to complain about textbooks. As Dr. Diane Ravitch 
points out in her book, The Language Police, ``Battles over the 
political orientation of textbooks is nothing new in American 
educational history'' (p. 68).
    Dr. Ravitch goes on to point out several times in her book that 
``the buying and selling of textbooks is more akin to a government 
procurement process than it is a real marketplace with consumer 
choices'' (p. 97).
    Let me elaborate on this; textbooks are usually developed and 
produced to meet the requirements and specifications (often very 
specific and explicit) established by the customer. Said another way, 
textbooks are published to meet the demands of the school system that 
purchases them.
    Dr. Ravitch addresses this situation in her book where she writes 
on page 97, ``they (publishers) want to sell textbooks, and . . . they 
must respond to the demands of the marketplace. To succeed in this 
highly regulated and politicized environment, it is essential for 
educational publishers not to become embroiled in controversy.''
    She goes on to point out on page 98, ``Publishers whose textbooks 
do not get adopted in one of these States sustain an economic blow . . 
.'' Dr. Ravitch further explains the publisher's dilemma on page 104, 
``Publishers spend millions of dollars merely to prepare for a textbook 
adoption process. A rejection in the big States may be the death knell 
not only for a series but for the publisher as well . . .''
    Literally, publishers often find themselves damned if they do or 
damned if they don't follow the guidelines set forth, not only by State 
or local Boards of Education, but guidelines established by national 
organizations like the National Council of Teachers of English and the 
International Reading Association (NCTE-IRA), or the American 
Psychological Association.
    Dr. Ravitch acknowledges the publisher's dilemma on page 71, 
``Textbook publishers were in an impossible situation. On the one hand, 
they were pressed on all sides to be studiously neutral by removing 
every point of view and every potential controversy from their books; 
on the other, fundamentalist parents complained that the textbooks' 
neutrality was a failure to take a stand on behalf of correct morality. 
The harder the textbook editors tried to make their product inclusive 
of all points of view without endorsing any, the more impossible it was 
to satisfy the Christian New Right and those who did not share its 
fundamentalist theology.''
    To give members of this Committee a better understanding of how 
detailed and specific bias and sensitivity guide lines imposed on the 
publishers by a State can be, I have attached the California 
``Standards for Evaluating Instructional Materials for Social 
Content.'' In her book The Language Police, Dr. Ravitch points out 
``California's standards send a clear signal to publishers about what 
is and is not acceptable in textbooks (and other instructional 
materials) adopted by the State'' (pg. 107).
    California is our Nation's largest State and as such, it is also 
the single largest purchaser of textbooks. The economic reality for an 
educational publisher is, if they want to sell textbooks in California, 
they have to follow these guidelines.
    California is not the only State with such guidelines, according to 
Dr. Ravitch, Over 40 States ``adhere to the NCTE-IRA standards'' (pg. 
124).
    The economic reality on publishers to conform to these standards 
was recognized by Dr. Ravitch on page 85 when she writes, ``no 
publisher could afford to enter a statewide adoption process with a 
textbook whose contents had been branded as racist or ageist or 
handicapist or biased against any other group.''
    In conclusion, publishers are accountable for aligning the 
textbooks they publish to a multitude of content standards established 
by State and local education agencies. Only instructional materials 
that conform to these standards will be purchased by these educational 
agencies. Most State and local school systems invite their citizens to 
review and comment on textbooks up for adoption.
    AAP members are committed to producing the highest possible quality 
textbooks, tests and other instructional materials, within the 
parameters established by our customers.
    AAP members would welcome any changes in the textbook selection 
process, which would increase the focus on the pedagogical quality of 
the materials themselves. But, we also believe these changes must 
originate in the local communities with parents, teachers and school 
officials determined to resist the politicizing of public education and 
textbook selection.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Whereupon, at 11:40 a.m., the committee was adjourned.]


</pre></body></html>
